<html>
<title> - OVERSIGHT HEARING ON LOCAL AND STATE PERSPECTIVES ON BLM'S DRAFT PLANNING 2.0 RULE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




     LOCAL AND STATE PERSPECTIVES ON BLM'S DRAFT PLANNING 2.0 RULE

=======================================================================

                           OVERSIGHT HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, May 12, 2016

                               __________

                           Serial No. 114-42

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-117 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                                 ------  
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 12, 2016...........................     1

Statement of Members:
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     4
        Prepared statement of....................................     5
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Cowan, Caren, Executive Director, New Mexico Cattle Growers' 
      Association, Albuquerque, New Mexico.......................    11
        Prepared statement of....................................    12
    Fisher, Corey, Senior Policy Director, Sportsmen's 
      Conservation Project, Trout Unlimited, Missoula, Montana...    20
        Prepared statement of....................................    22
    French, Jim, Commissioner, Humboldt County, Winnemucca, 
      Nevada.....................................................     7
        Prepared statement of....................................     8
    Obermueller, Pete, Executive Director, Wyoming County 
      Commissioners Association, Cheyenne, Wyoming...............    25
        Prepared statement of....................................    27

Additional Materials Submitted for the Record:
    American Motorcyclist Association, May 11, 2016 Letter to 
      Chairman Gohmert and Ranking Member Dingell regarding the 
      Hearing....................................................    45
    List of documents submitted for the record retained in the 
      Committee's official files.................................    48
    Park County, Board of County Commissioners, May 12, 2016 
      Letter to Neil Kornze, Director, BLM regarding Planning 2.0    35
    Utah State, Public Lands Policy Coordination Office, May 10, 
      2016 Letter to Neil Kornze, Director, BLM regarding 
      Planning 2.0...............................................    46
 
   OVERSIGHT HEARING ON LOCAL AND STATE PERSPECTIVES ON BLM'S DRAFT 
                           PLANNING 2.0 RULE

                              ----------                              


                         Thursday, May 12, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:06 p.m., in 
room 1324, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Westerman, 
Hice, Radewagen, Dingell, Huffman, Polis, and Clay.
    Also Present: Representative Lummis.
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order. The subcommittee is meeting 
today to hear testimony on Local and State Perspectives on 
BLM's Draft Planning 2.0 Rule.
    Under Committee Rule 4(f), any oral opening statements of 
the hearings are limited to the Chairman and the Ranking 
Minority Member. Therefore I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Subcommittee Clerk by 5 
p.m. today. Hearing no objection, it is so ordered.
    I ask unanimous consent that the gentlelady from Wyoming, 
Mrs. Lummis, be allowed to sit with the subcommittee and 
participate in the hearing. Hearing no objection, that is so 
ordered.
    I also politely ask that everyone in the hearing room 
please silence your cell phones. This will allow for minimum 
distractions for both our Members and our guests to ensure that 
we all gain as much from this opportunity as possible. It is a 
little different from when I was a judge. If your cell phone 
went off, the bailiff took it and you had to do so much 
community service before you got it back. I do not have that 
authority at this point, but I would just ask that you turn 
those to vibrate at a minimum.
    I now recognize myself for 5 minutes for an opening 
statement.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations is meeting today to hear directly from witnesses 
who are a part of the throngs of people most affected by the 
Bureau of Land Management's proposed resource management 
planning rule. This draft rule is part of BLM's Planning 2.0 
initiative, which would completely revamp the process by which 
BLM prepares and amends resource management plans for hundreds 
of millions of acres throughout the West.
    When Congress passed the Federal Land Policy Management 
Act, sometimes referred to as FLPMA, it made clear that BLM is 
required to coordinate with local governments on management 
plans. But BLM's Planning 2.0 effort and this proposed rule 
seem not to take that responsibility seriously enough.
    BLM has said that its draft Planning 2.0 rule would not 
really change BLM's practice. But, if that's the case, it is 
counterproductive to go to the trouble of making another 
regulation. Words have meaning, and we are here today to take a 
look at what BLM's regulation actually does. In fact, there are 
several changes in the proposed rule that are worth mentioning, 
and I am sure our witnesses will have additional matters they 
would like to address.
    First, instead of keeping most planning activity at the 
field office level, this proposed rule would transfer that 
authority to BLM headquarters here in Washington, DC. Doing so 
opens the door to political gamesmanship and to special 
interests in Washington, influencing decisions that affect 
Americans thousands of miles away.
    This proposed rule also introduces a lot of uncertainty. 
From simply changing ''shall'' to ``will,'' to renaming 
cooperating agencies, to giving BLM wide discretion to 
unilaterally and arbitrarily designate large planning areas, 
BLM's draft rule makes it much more difficult for local 
individuals and officials to keep up with and participate in 
the planning process. In some instances, BLM even explicitly 
shifts the burden to local and state governments.
    For example, BLM would no longer have to familiarize itself 
with local land use plans and policies to determine whether or 
not there are any inconsistencies. Instead, BLM will only 
consider inconsistencies that states or counties raise in 
writing.
    How can BLM say it is cooperating with state and local 
governments when the Agency is trying to shirk its 
responsibility to understand the plans and policies that local 
and state officials have already developed? A truly 
collaborative process is a two-way street, and making state and 
local governments entirely responsible for this part of the 
process is unwarranted.
    BLM says Planning 2.0 is all about being more nimble and 
working collaboratively with local governments. Yet, BLM has 
refused to grant requests to extend the public comment period. 
That would make it appear that they wish to nimbly avoid 
receiving grant requests. The average request was for an 
extension of about 108 days, but BLM only extended the comment 
period for 30 days. They apparently want to nimbly avoid 
receiving comments. This was not the best way to kick off a 
rule that is supposed to make coordination better and easier.
    On the other hand, the Administration is trying to churn 
out as many new, heavy-handed rules, regulations, and policies 
as possible before the President leaves office, such as changes 
in critical habitat designation, venting and flaring rules, 
restrictive resource management plans, a new take on the 
Migratory Bird Treaty Act, designation of new national 
monuments, coal lease suspensions, offshore exclusions, and 
conservation mitigation requirements. Planning 2.0 is just one 
more thing creating havoc for Americans already unfairly 
burdened by over-regulation.
    It is worth repeating that management decisions must be 
made at the local level, in concert with the people whose lives 
are most affected by those decisions, not by bureaucrats in 
Washington. That is why today we are hearing from individuals 
from across the West who understand the implications of 
Planning 2.0 and can express those concerns and critiques that 
BLM should heed.
    I would like to thank each of the witnesses for joining us 
today. I know you are not here because of the pay; you are here 
because you care about the country. We look forward to hearing 
your testimony.

    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    The Subcommittee on Oversight and Investigations is meeting today 
to hear directly from witnesses who are a part of the throngs of people 
most affected by the Bureau of Land Management's proposed resource 
management planning rule.
    This draft rule is part of BLM's ``Planning 2.0'' initiative, which 
would completely revamp the process by which BLM prepares and amends 
resource management plans for hundreds of millions of acres throughout 
the West.
    When Congress passed the Federal Land Policy and Management Act 
(FLPMA), it made clear that BLM is required to coordinate with local 
governments on management plans. But BLM's Planning 2.0 effort and this 
proposed rule seem not to take that responsibility seriously.
    BLM has said that its draft Planning 2.0 rule would not really 
change BLM's ``practice.'' But if that's the case, it is 
counterproductive to go to the trouble of making another regulation. 
Words have meaning, and we're here today to take a look at what BLM's 
regulation actually does.
    In fact, there are several changes in the proposed rule that are 
worth mentioning, and I'm sure our witnesses will have additional 
matters they would like to address.
    First, instead of keeping most planning activity at the field 
office level, this proposed rule would transfer that authority to BLM 
headquarters in Washington, DC. Doing so opens the door to political 
gamesmanship and to special interests in Washington influencing 
decisions that affect Americans thousands of miles away.
    This proposed rule also introduces a lot of uncertainty. From 
simply changing ``shall'' to ``will,'' to renaming ``cooperating 
agencies,'' to giving BLM wide discretion to unilaterally and 
arbitrarily designate large planning areas, BLM's draft rule makes it 
that much more difficult for locals to keep up with and participate in 
the planning process.
    In some instances, BLM even explicitly shifts the burden to local 
and state governments. For example, BLM would no longer have to 
familiarize itself with local land use plans and policies to determine 
whether there are any inconsistencies. Instead, BLM will only consider 
inconsistencies that states or counties raise in writing.
    How can BLM say it's cooperating with state and local governments 
when the Agency is trying to shirk its responsibility to understand the 
plans and policies that locals have already developed? A truly 
collaborative process is a two-way street and making state and local 
governments entirely responsible for this part of the process is 
unwarranted.
    BLM says that Planning 2.0 is all about being more ``nimble'' and 
working collaboratively with local governments--yet BLM has refused to 
grant requests to extend the public comment period. The average request 
was for an extension of about 108 days, but BLM only extended the 
comment period for 30 days. This was not the best way to kick off a 
rule that's supposed to make coordination better and easier.
    On the other hand, this Administration is trying to churn out as 
many new heavy-handed rules, regulations, and policies as possible 
before the President leaves office, such as changes in critical habitat 
designation, venting and flaring rules, restrictive resource management 
plans, a new take on the Migratory Bird Treaty Act, designation of new 
national monuments, coal lease suspensions, offshore exclusions, and 
conservation mitigation requirements. Planning 2.0 is just one more 
thing creating havoc for Americans already unfairly burdened by over-
regulation.
    It's worth repeating that management decisions must be made at the 
local level, in concert with the people whose lives are most affected 
by those decisions--not by bureaucrats in Washington.
    That is why today we're hearing from individuals from across the 
West who understand the implications of Planning 2.0 and can express 
concerns and critiques that BLM should heed. I'd like to thank each of 
them for joining us today, and look forward to hearing their testimony.

                                 ______
                                 

    Mr. Gohmert. At this time, the Chair recognizes the Ranking 
Minority Member for 5 minutes, Mrs. Dingell.

   STATEMENT OF THE HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Thank you, Mr. Chairman. We do have some of 
the same goals in agreement; we just might see things through 
different perspectives, so I want to thank you, Mr. Chairman.
    Today's hearing is about an important issue, the management 
of our public lands. Our public lands hold a wealth of both 
natural and cultural resources. They are a hub for recreational 
activities, from fishing and bird watching, to white water 
rafting and mountain biking.
    They provide critical habitat for endangered species and 
free ecosystem services like water filtration that we rely on 
every day. They support local economies and entrepreneurship. 
It is our duty to ensure that these lands and their diverse 
resources are maintained for many generations to come.
    The Bureau of Land Management has an especially critical 
role to play as the largest land holder among the Federal 
agencies. The Agency must have a process for managing lands and 
resources that is efficient, effective, and responsive to ever-
changing needs.
    That is where Planning 2.0 comes into the picture. Planning 
2.0 is the BLM's first major proposal for updating their 
resource management planning process in over 30 years; and 
although the new planning process is only in proposal form, it 
is clear that the Bureau is doing its due diligence in trying 
to make the process as transparent and accessible to the public 
as possible.
    Planning 2.0 proposes to involve the public earlier and 
more often in the planning process. By doing so, they will be 
better able to manage resources in a way that honors diverse 
needs, prevents expensive lawsuits down the road, and increases 
their own efficiency.
    Planning 2.0 also recognizes the importance of managing a 
land's resources where they are, at that local level that you 
talk about, not where they think it should be. It simply does 
not make sense to manage resources according to political and 
jurisdictional boundaries. Rivers do not stop at county lines. 
The sage grouse does not turn around and strut the other way 
when it reaches the BLM field office boundary. We cannot manage 
resources in a way that pretends it is any different.
    With changes like these, Planning 2.0 is trying to bring 
the Bureau's public land and resource management into the 21st 
century. Unfortunately, some of my colleagues seem to have a 
desire to want to maintain the status quo by holding onto the 
outdated process that is less efficient, less evidence-based, 
and less open to public input. We all want that public input 
that you talked about. What disappoints me even more is that 
there may very well be ways to improve the current Planning 2.0 
proposal that both sides can agree on, but we are not going to 
learn it here today. Rather than seizing this opportunity to 
engage BLM in a productive conversation about ways to improve 
the planning process, we did not invite the Agency to be at the 
table when we should have. It is like taking your car to the 
shop and telling the receptionist, the other customers, and 
passers-by about your squeaky brakes, and then leaving without 
talking to the mechanic. You might feel a little better after 
venting, but nothing gets diagnosed or fixed.
    This hearing is an even bigger missed opportunity for our 
witnesses who have come a long way at their own expense, and we 
thank you for that. I think they deserve better. I yield back 
the balance of my time.

    [The prepared statement of Mrs. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman.
    Today's hearing is about an important issue--the management of our 
public lands. Our public lands hold a wealth of both natural and 
cultural resources. They are a hub for recreational activities, from 
fishing and birdwatching to white water rafting and mountain biking. 
They provide critical habitat for endangered species and free ecosystem 
services like water filtration that we rely on every day. They support 
local economies and entrepreneurship. It is our duty to ensure that 
these lands and their diverse resources are maintained for many 
generations to come.
    The Bureau of Land Management has an especially critical role to 
play as the largest land holder among the Federal agencies. The Agency 
must have a process for managing their lands and resources that is 
efficient, effective, and responsive to our ever-changing needs.
    That's where Planning 2.0 comes into the picture. Planning 2.0 is 
the BLM's first major proposal for updating their resource management 
planning process in over 30 years. And although the new planning 
process is only in proposal form, it is clear that the Bureau is doing 
its due diligence in trying to make the process as transparent and 
accessible to the public as possible. Planning 2.0 proposes to involve 
the public earlier and more often in the planning process. By doing so, 
they will be better able to manage resources in a way that honors 
diverse needs, prevents expensive lawsuits down the road, and increases 
their own efficiency.
    Planning 2.0 also recognizes the importance of managing a land's 
resources where they are, not where we think they should be. It simply 
doesn't make sense to manage resources according to political and 
jurisdictional boundaries. Rivers don't stop running at county lines. 
The sage grouse doesn't turn around and strut the other way when it 
reaches the BLM Field Office boundary. We can't manage resources in a 
way that pretends any different.
    With changes like these, Planning 2.0 is trying to bring the 
Bureau's public land and resource management into the 21st century. 
Unfortunately, my colleagues on the other side of the aisle seem to 
have a desire to maintain the status quo by holding onto an outdated 
process that is less efficient, less evidence-based, and less open to 
public input.
    But what disappoints me even more is that there may very well be 
ways to improve the current Planning 2.0 proposal that both sides can 
agree on, but we won't learn them here today. Rather than seizing this 
opportunity to engage BLM in a productive conversation about ways to 
improve the planning process, my colleagues did not invite the Agency 
to be at the table. It's like taking your car to the shop and telling 
the receptionist, other customers, and passers-by all about your 
squeaky brakes and then leaving without talking to the mechanic. You 
might feel a little better after venting but nothing gets diagnosed or 
fixed.
    This hearing is an even bigger missed opportunity for our witnesses 
who have come from afar at their own expense. I think they deserve 
better.
    I yield back the balance of my time.

                                 ______
                                 

    Mr. Gohmert. All right. I thank the gentlelady.
    At this time, I will now introduce our witnesses from right 
to left. First, we have Mr. Jim French, County Commissioner 
from Humboldt County, Nevada. To his right, our left, Ms. Caren 
Cowan, Executive Director of the New Mexico Cattle Growers' 
Association in Albuquerque, New Mexico. Next, we have Mr. Corey 
Fisher, Senior Policy Director for the Sportsmen's Conservation 
Project at Trout Unlimited--I like the sound of that, Trout 
Unlimited--in Missoula, Montana.
    Now, I would like to invite the gentlelady, the quite 
honorable gentlelady, from Wyoming to introduce our final 
witness.
    Mrs. Lummis. Thank you, Mr. Chairman, and thank you for 
allowing me to participate in this hearing today.
    It is my pleasure to introduce Mr. Pete Obermueller, who is 
the Executive Director of the Wyoming County Commissioners 
Association. Some of you, who have been around for a while, 
might recognize Pete as a former legislative director for my 
office here in Washington. We did a lot of work together on 
this committee, and on the Interior and Environment 
Appropriations Subcommittee.
    Pete was juggling a lot of hats when he was here working 
for me. I asked him one time what experience in his life best 
prepared him for the many, many tasks that he was carrying in 
our office. He said, ``That is really easy. I was the manager 
of a Christian rock band.'' I thought about that for a while, 
and, you know, it made a lot of sense, because you are doing 
scheduling, contract management, people management, and 
logistics; and you start thinking about what it takes to handle 
people on the road working that way with their different 
personalities. For heaven sakes, it made perfect sense that 
that was his most equatable experience to serve my office so 
well here in Washington.
    He is now serving the Wyoming County Commissioners 
Association very well. In fact, the Wyoming County 
Commissioners Association, under Pete's capable leadership, 
considering that Wyoming has 17 million acres of BLM land, put 
out a publication of all the different Federal agencies the 
counties have to deal with, what their statutory duties are, 
and how county commissioners are expected or the law expects 
county commissioners to interact.
    So, Pete's experience on behalf of county commissioners in 
the West in public land states, as well as here in Washington 
where he worked on the Western Caucus issues and this 
committee's issues, make him an exceptional witness today.
    So welcome, Pete. And thank you, Mr. Chairman. I yield 
back.
    Mr. Gohmert. Thank you. The witness has a lot to live up to 
after that introduction.
    [Laughter.]
    Mr. Gohmert. At this time, I need to remind the witnesses 
that under our Committee Rules, all oral statements must be 
limited to 5 minutes. Your written statements have been 
submitted and will be part of the record. We have all had a 
chance to review those, and we appreciate them. When the light 
comes on, it will be green for 4 minutes. When it turns yellow, 
you have 1 minute remaining; and when it turns red, then it is 
my job to help you immediately finish. So, again, understand we 
have your written statements.
    The Chair will now recognize Mr. French for your testimony. 
You are recognized for 5 minutes, Mr. French.

    STATEMENT OF JIM FRENCH, COMMISSIONER, HUMBOLDT COUNTY, 
                       WINNEMUCCA, NEVADA

    Mr. French. Good afternoon, Chairman Gohmert, Ranking 
Member Dingell, and members of the subcommittee. Thank you for 
the opportunity to testify today to provide local and county 
perspective on BLM's Planning 2.0 rule.
    My name is Commissioner Jim French, a member of the 
Humboldt County Nevada Board of Commissioners. Humboldt County 
has a population of 16,528 residents, and a land area of nearly 
6.2 million acres. Of those acres, BLM manages over 4.3 million 
acres, nearly the size of the state of New Jersey. All total, 
the Federal Government owns nearly 90 percent of my county. As 
a county commissioner and a biologist with the Nevada 
Department of Wildlife for more than 34 years, I know firsthand 
how important it is for Federal land managers to work with 
local communities. When land management decisions are handed 
down from Washington, DC, they impact more than just Federal 
lands. They impact our counties, economics, and way of life.
    After reviewing the proposed BLM Planning 2.0 rule, I am 
concerned that the BLM has not provided sufficient time for 
counties to fully analyze the rule. Local governments and 
locally generated information should play a significant role in 
guiding the planning process. Commonly, public lands counties 
lack the staffing and budgetary resources necessary to employ a 
full-time natural resources manager. County coordination and 
approval of outside contractor analysis will exceed the 90 days 
offered by the BLM for comment. For many more counties, the 
task will likely fall on county commissioners like me who will 
volunteer to sit down and sift through the Planning 2.0 and try 
to assess the impacts.
    Given the significant impact of Planning 2.0, the National 
Association of Counties and Local Governments from across the 
Nation has called for additional time to analyze the regulatory 
changes for the proposed 2.0.
    Second, I am concerned that BLM's proposed changes will 
reduce Federal consistency with local master plans and 
policies. FLPMA makes it clear that local governments are not 
just another member of the public. Counties must have a seat at 
the table and an opportunity to shape management decisions and 
partnership with land managers.
    The proposed changes would revise consistency requirements 
so that the BLM would not be required to consider local 
implemented policies or programs or other local government 
actions. This change would significantly impact the ability of 
local government and the BLM to work together to address the 
evolving needs of a community and its landscapes.
    Additionally, the proposed rule seeks to distinguish 
between plan components whose revisions require public 
consultation and an implementation strategy which can be 
revised at any time without consultation with local government 
or cooperating agencies. This change fails to recognize that 
how a plan is implemented can have as significant an impact as 
the components of the plan itself.
    Engagement with local governments should not be 
discretionary. The BLM must be required to engage local 
governments at all stages of RMP development and 
implementation.
    Finally, Planning 2.0 proposes a fundamental shift in the 
BLM's RMP planning area. In this rule, BLM has proposed a 
change toward broad geographic planning boundaries, shifting 
the focus to a regional level which dilutes the voice of the 
resource management in those communities. For example, in my 
county, working with district managers has been successful in 
harmonizing local, state, and Federal plans to promote recovery 
in the wake of wildfire events. We have worked with our Federal 
partners to coordinate large fire reclamation teams, and have 
seen positive results in coordinating recovery plans to the 
existing local resource plans.
    In contrast, a regional approach will encourage a 
disconnect by defaulting to a directive not specific to the 
needs of the local communities or the natural resources.
    Although I understand the need for flexibility, 
scalability, and planning, establishing a default boundary that 
does not begin at the local level will only serve to reduce the 
local voice, lose valuable local knowledge and expertise, and 
drown out the voices to local stakeholders and cooperating 
agencies and a sea of form letters from national interest 
groups.
    Counties like mine continue to urge the BLM to work with us 
to implement a Planning 2.0 rule that benefits from significant 
local government input, guarantees consistency with local 
plans, and ensures robust local cooperation at all phases of 
the planning process. As a partner with the Federal land 
managers, counties want a practical Federal policy that works 
at a local level.
    Thank you.

    [The prepared statement of Mr. French follows:]
  Prepared Statement of the Hon. Jim French, Humboldt County, Nevada, 
                         Board of Commissioners
    Chairman Gohmert, Ranking Member Dingell and members of the 
subcommittee, thank you for the opportunity to testify today to provide 
a local county perspective on BLM's Draft Planning 2.0 Rule.
    My name is Commissioner Jim French, member of the Humboldt County, 
Nevada, Board of Commissioners. I also serve as one of Nevada's 
representatives on the Board of Directors of the National Association 
of Counties' (NACo) Western Interstate Region. Humboldt County is 
located in northern Nevada, approximately 170 miles northeast of Reno. 
We have a population of 16,528 residents and a land area of nearly 6.2 
million acres. Of those 6.2 million acres, the Bureau of Land 
Management (BLM) manages over 4.3 million acres. Additionally, over 
660,000 acres in our county are managed by either the U.S. Forest 
Service (USFS) or the U.S. Fish and Wildlife Service (FWS). All 
totaled, the Federal Government owns nearly 90 percent of my county and 
the BLM alone manages an area in Humboldt County nearly the size of the 
state of New Jersey.
    As a county commissioner in a public lands county and as the 
Winnemucca District biologist for the Nevada Department of Wildlife for 
almost 30 years, I know firsthand how important it is for Federal land 
managers to work with local communities. Our citizens travel on roads 
across Federal land to get to work every day and many families make 
their living working our region's natural resources. Those that live, 
work and raise their families in my county know that our community is 
linked to the land. When land management decisions are handed down from 
Washington, DC, they impact more than just the Federal lands, they 
impact our community's economy and way of life.

    After reviewing the proposed BLM Planning 2.0 rule, I am concerned 
that BLM:

    <bullet> Has not provided sufficient time for counties to fully 
            digest and offer comment on the proposed rule change;

    <bullet> Has proposed changes that will reduce requirements to 
            ensure Federal consistency with local policies; and

    <bullet> Seeks to implement a multi-state landscape level of 
            analysis that could diminish the ability of BLM to 
            meaningfully assess the local impacts of management 
            decisions.

    First, the BLM has not provided sufficient time for the counties to 
fully analyze and comment on the rule. The proposed rule will have a 
significant impact on how the BLM plans for and manages its 245 million 
acres of public lands and 700 million acres of subsurface minerals for 
years to come. Each of the 477 counties across the Nation that contain 
BLM lands will be impacted by the proposed Planning 2.0 rule. As co-
regulators and intergovernmental partners in the land management 
mission, counties have a significant interest in providing the most 
meaningful information and analysis possible to help develop BLM 
regulations. Local governments and locally generated information should 
play a significant role in guiding the planning process.
    Commonly, public lands counties like mine lack the staffing and 
budgetary resources necessary to employ a full-time natural resources 
coordinator or similar position dedicated to assessing the impacts of 
sweeping Federal land management actions like Planning 2.0 at the 
county level. For many public lands counties, obtaining the necessary 
expertise to fully assess Planning 2.0 and its impacts will require 
them to contract outside assistance to perform a comprehensive analysis 
of the proposed rule. Coordination, preparation and approval of outside 
contractor analysis will exceed the 90 days offered by the BLM for 
comment. For many more counties, their budgets do not allow them to 
obtain outside counsel to analyze Planning 2.0's impact. In those 
cases, the task will likely fall to county commissioners like me who 
will volunteer to sift through the hundreds of pages that make up 
Planning 2.0 and try to assess its impact on their communities.
    Given the potentially significant impact of Planning 2.0, the 
volume of information involved, as well as the staffing and budgetary 
realities facing counties like mine, NACo, along with county 
governments from across the Nation, called on BLM to provide additional 
time for local governments to analyze the implications of the 
substantive regulatory changes presented in Planning 2.0.
    By allowing sufficient time for counties to offer input and suggest 
changes to the proposed regulation, local governments can help the BLM 
mitigate any unintended consequences or challenges posed by the 
proposed rule, some of which are foreseeable from a local government 
perspective.
    Second, I am concerned the BLM has proposed changes to current 
planning rules that will reduce local government's ability to ensure 
Federal consistency with local master plans and policies. The Federal 
Land Policy and Management Act (FLPMA) charges the BLM to ``. . . 
provide for meaningful public involvement of state and local government 
officials, both elected and appointed, in the development of . . . land 
use regulations . . ..'' Public lands counties provide essential law 
enforcement, search and rescue, public health, transportation 
infrastructure and many more services on Federal public lands. 
Rightfully so, FLPMA makes it clear that local governments are not just 
another member of the public. Local governments interact with our 
natural resources on a daily basis and hold a wealth of practical, on 
the ground knowledge that should be actively sought out by Federal 
agencies to inform Federal decisionmaking. As elected officials and 
intergovernmental partners with the Federal Government, counties must 
have a seat at the table and an opportunity to help shape management 
decisions in partnership with land managers.
    Integrated land management efforts across levels of government are 
key to successful land management planning. The Planning 2.0 
regulations attempt to change the way the BLM interacts with state, 
local and tribal governments for land management planning. For example, 
proposed changes would revise consistency requirements so that resource 
management plans (RMPs) must only be consistent with officially adopted 
local land use plans. BLM would not be required to consider locally 
implemented policies, programs or other local government actions, nor 
would BLM have to consider local land use plans that are in the process 
of being crafted or revised. This change could significantly impact the 
ability of local governments and BLM to work together to address the 
evolving needs of a community or the local landscape.
    Presently, the BLM planning protocol recognizes county planning 
documents including additions, changes and updates. It is widely 
recognized that as conditions change, management direction must adjust 
in parallel. FLPMA requires ``consistency with local master plans and 
policies.'' However, changes offered in the proposed Planning 2.0 rule 
attempt to revise consistency requirements to allow BLM to recognize 
only plans that have been fully adopted before the planning process 
begins.
    When the original ``RMP Winnemucca district'' was adopted in 1982-
83 Humboldt County had approximately 20 percent fewer residences and 
most of our natural resource related jobs had not yet been created. 
Over the course of the 30 years that the RMP was in place Humboldt 
County completely revised its master plan three times, created a water 
and natural resource plan, a regional transportation plan and 
implemented countless other planning efforts to meet the challenges of 
our changing community. As these new local plans were implemented, we 
were able to work with BLM to ensure consistency between local and 
Federal plans. Under Planning 2.0 the addition of new local plans and 
revisions to existing documents may not be officially recognized by the 
BLM.
    Additionally, the proposed rule seeks to distinguish between ``plan 
components,'' which can only be changed by amending or revising an RMP, 
and an ``implementation strategy,'' which guides future actions the BLM 
may take on the land but can be revised at any time without triggering 
a requirement for consultation with local counties and cooperating 
agencies. This change fails to recognize that how a plan is implemented 
can have as significant an impact as the components of the plan itself. 
By failing to consult and cooperate with local governments on 
implementation strategies, the BLM would not benefit from valuable 
local insights. This could result in implementation strategies with 
significant negative impacts on local communities. Engagement with 
local government should not be discretionary. The BLM must be required 
to engage local governments at all stages of RMP development and 
implementation.
    Finally, Planning 2.0 proposes a fundamental shift in the BLM's 
default RMP planning area. Rather than continuing the policy of 
utilizing local BLM Field Office boundaries as the default planning 
area, the BLM has instead proposed a shift toward broader geographic 
planning boundaries that cross regional districts and, in some cases, 
even state lines. Shifting the BLM's focus to a regional ``30,000 foot 
level,'' rather than focusing on discrete local landscapes, dilutes the 
local voice in resource management planning, empowering regional line 
managers' decisions far removed from the land.
    In my county, by taking a local focus and working with local land 
managers we have been successful in harmonizing local, state and 
Federal plans to promote recovery in the wake of wildland fire. 
Following fire events, our response to these events has centered on 
locally focused planning efforts. We work with our Federal partners to 
coordinate large fire reclamation teams of managers, regulators, and 
local officials assembled to assess damage and prioritize response 
efforts on behalf of the citizens and the natural resources impacted by 
the fire. These efforts have been largely successful due to our team 
approach of collecting data and coordinating recovery plans to existing 
local resource plans, regional master plans and other regional 
strategic plans.
    In contrast, a regional approach based at the ``basin'' level, 
formulated by disconnected line managers who have no connection to the 
land, resources or the communities affected by the disaster would not 
benefit from the kind of on the ground knowledge local governments and 
stakeholders have been able to provide. I'm afraid a ``one size fits 
all'' approach, based in regional directives will result in what is 
commonly referred to as ``analysis paralysis'' and a project 
disconnect. In the case of fire events in our area, when a regional 
approach has been applied to post-fire restoration the resulting 
disconnect and delays in action have resulted in a failure to reclaim 
damaged lands, large-scale infestation of noxious weeds and damage to 
critical infrastructure. As currently proposed, Planning 2.0 will 
encourage that disconnect by defaulting to a regional directive not 
specific to the realities and needs of the local communities or natural 
resources.
    Land management decisions must balance many ecological, economic, 
historical and cultural factors. In my experience as a county 
commissioner and a land manager, the management decisions that strike 
the best balance are those made in close coordination with the local 
community by individuals with a deep understanding of the landscape. 
This understanding can only be built over time by being ``on the land'' 
and in the community. Defaulting the planning focus to a broader 
regional scale divorces decisionmaking from the land itself. BLM's 
focus should remain at the local level and impact decisions should be 
made, literally, on the ground.
    Although I understand the need for flexibility and scalability in 
planning, establishing a default boundary that does not begin at the 
local level will only serve to reduce the local voice, cause valuable 
local knowledge and experiences to be lost to an overly broad 
perspective, and drown out the voices of local stakeholders and 
cooperating agencies in a sea of form letters from national interest 
groups without a direct connection to the land itself.
    Local county governments can be invaluable allies to Federal land 
managers. The necessity for local government to be close to its land 
and its people makes us a significant resource. Local governments can 
provide a real-time, on the ground perspective that can help to avoid 
many of the pitfalls caused by distant land management decisions made 
in far-off offices. We are at the forefront of protecting both our 
citizens and the environment. Counties like mine continue to urge the 
BLM to work with us to implement a Planning 2.0 rule that benefits from 
significant local government input, guarantees consistency with local 
plans and ensures robust local cooperation at all phases of the 
planning process. As a partner with Federal land managers in this 
pursuit, counties want a practical Federal policy that works at the 
local level.

                                 ______
                                 

    Mr. Gohmert. Thank you very much, Mr. French.
    At this time, Ms. Cowan, you are recognized for 5 minutes.

STATEMENT OF CAREN COWAN, EXECUTIVE DIRECTOR, NEW MEXICO CATTLE 
         GROWERS' ASSOCIATION, ALBUQUERQUE, NEW MEXICO

    Ms. Cowan. Mr. Chairman, Ranking Member Dingell, and 
members of the committee, thank you for the opportunity to come 
here today and speak to you about this issue that is so 
important to ranching families in New Mexico and throughout the 
West.
    My name is Caren Cowan, and I am the Executive Director of 
the New Mexico Cattle Growers' Association and the New Mexico 
Wool Growers' Association. In addition, I publish a monthly 
magazine and a monthly newspaper that covers 40 states from 
Maine to Hawaii on ranching and private property issues.
    The New Mexico Cattle Growers' Association has members in 
all 33 of our state's counties. The association also has 
members from 19 other states.
    The use of Bureau of Land Management lands is critical to 
the ranching communities in New Mexico, as well as to NMCGA's 
members in other states. Given the vast amounts of land managed 
by the Agency within the western states, the ability for local 
government to participate in Federal activities on lands that 
make up a large majority of counties is of critical importance. 
I was blessed to have known some of the men who crafted FLPMA. 
They were wise men, and I ask for their guidance often.
    The proposed Planning 2.0 regulations certainly do not 
reflect the concerns that led to the creation of FLPMA, nor do 
they reflect the spirit or the intent of the law. One of the 
beauties of FLPMA is the ability to make decisions on the 
ground with the involved public following the multiple use 
mandates of the Bureau of Land Management. This proposal will 
destroy that ability, favoring the command and control top-down 
driven decisions that we find so distasteful in other Federal 
land management agencies.
    Not only is the local government participation in the 
planning a huge concern, but the redefining of the term 
``landscape'' to cover vast amounts of land without recognition 
of geopolitical boundaries is a not-very-well-veiled attempt at 
Federal control in the states.
    The proposed planning rule also eliminates the requirement 
that the areas of critical environmental concern, ACECs, must 
still be managed for multiple use by eliminating a sentence in 
the existing ACEC definition that states, ``The identification 
of a potential ACEC shall not of itself change or prevent 
change of the management of use of public lands.'' By 
eliminating that sentence, the BLM is granting the ability to 
eliminate multiple use on ACECs. Although the BLM describes 
ACEC designation as the BLM's attempt to clearly communicate 
the BLM's intent to prioritize those resources and their 
values, such prioritization will eliminate part of the use. 
These are but a few concerns contained within the 244-page 
proposal. I could go on for some time, and I did so with my 
written comments.
    The request that we bring to you today is that the process 
and development of this new planning proposal be slowed down, 
and backed up, to include all of those who utilize BLM lands. 
This process should include at least one meeting in each state, 
and better yet, within each district. To date, to my knowledge, 
there has been one public meeting in 2015 in California, and 
another one in Colorado in 2016.
    The Denver meeting was a Webinar on a weekday in the middle 
of the week. That certainly does not fit into the time frame 
that most working Americans can participate in. We have 
requested up to a 180-day extension on the comment period, but 
we were granted only a paltry 30 days. We hope that the BLM 
will reconsider the short extension and provide us one that is 
more meaningful and that allows for more participation.
    A lot of my members do not even have access to a computer. 
All of this is on the computer, so you have left out a huge 
group of people.
    I agree with Mrs. Dingell that there are things that 
probably do need to be changed; and I agree with her that we 
need to sit at the table and change them. We need to have time 
to do that.
    I want to thank you for the time today. I also want to 
thank the New Mexico Department of Agriculture and the Cattle 
Growers' attorney, Karen Budd-Falen from Wyoming, for their 
help in preparing these comments. Thank you for your time.

    [The prepared statement of Ms. Cowan follows:]
 Prepared Statement of Caren Cowan, Albuquerque, New Mexico, on behalf 
             of the New Mexico Cattle Growers' Association
    Mr. Chairman, members of the committee, thank you for the 
opportunity to speak to you today about this most important issue. My 
name is Caren Cowan; I am the Executive Director of the New Mexico 
Cattle Growers' Association (NMCGA) and the New Mexico Wool Growers, 
Inc. (NMWGI). Additionally, I published the New Mexico Stockman 
magazine and the Livestock Market Digest monthly newspaper. The NMCGA 
has members in all 33 of New Mexico's counties as well 19 other states. 
The NMWGI is New Mexico's oldest trade organization. The Stockman and 
Digest reach over 40 states in the Nation ranging from Maine to Hawaii.
    The use of Bureau of Land Management (BLM) lands in critical to the 
ranching communities of New Mexico as well as to NMCGA's members in 
numerous other states. Given the vast amounts of lands managed by the 
Agency within the western states, the ability for local governments to 
participate in Federal activities on lands that make up a large 
majority of many counties is of critical importance.
    I was blessed to have known some of the men who crafted the Federal 
Land Policy & Management Act (FLMPA). The proposed 2.0 planning 
regulations certainly don't reflect the concerns that lead to the 
creation of FLMPA, nor does it reflect the letter and intent of the 
law.
    One of the beauties of FLMPA is the ability to make decisions on 
the ground with the involved publics following the multiple use 
mandates of the BLM. This proposal will destroy that ability, favoring 
the command and control, top driven down decisions that are so 
distasteful with other land management agencies.
    Not only is local government participation in planning a huge 
concern, but redefining the term ``landscape'' to cover vast amounts of 
land without the recognition of geopolitical boundaries is a not well-
veiled attempt at Federal control over counties and states.
    The proposed planning rule also eliminates the requirement that 
Areas of Critical Environmental Concern (ACEC) must still be managed 
for ``multiple use'' by eliminating a sentence in the existing ACEC 
definition that states ``the identification of a potential ACEC shall 
not, of itself, change or prevent change of the management or use of 
public lands.''
    By eliminating that sentence, the BLM is granting to itself the 
ability to eliminate multiple uses from ACECs. Although the BLM 
describes ACEC designation as the BLM's attempt to ``clearly 
communicate the BLM's intention to prioritize these recourses values or 
uses,'' such prioritization will lead to elimination of use.
    These are but a few concerns within the 244 page proposal. I could 
go on for some time, and did in my written comments.
    The request we bring you today is that the process of the 
development of a new planning proposal be slowed downed and backed up 
to include all of those who utilize BLM lands. This process should 
include at least one meeting in each state, better yet with in 
district.
    To date there has been one public meeting in 2015 in California and 
another in Colorado in 2016. The Denver meeting was a ``Webinar'' on a 
weekday in the middle of the day. That certainly does fit into a time 
frame that most working Americans can participate in.
    We have requested up a 180-day extension on the comment period, but 
were granted only a paltry 30 days. We hope that the BLM will 
reconsider this short extension and provide one that is more 
meaningful.
    Thank you for your time today.
                           specific comments
Background
    February 11, 2016, the Bureau of Land Management (``BLM'') 
introduced new draft planning regulations (``draft Planning 2.0'') to 
``enable the BLM to more readily address landscape-scale issues . . . 
and to respond more effectively to environmental and social change.'' 
The statutory authority for the BLM to adopt these new planning 
regulations is the (``FLPMA''). FLPMA was adopted in 1976; that Act (1) 
changed the BLM's mission from the disposal of public land to retention 
of these lands, (2) required the BLM to prepare land and resource 
management plans (``RMP'') which govern all activities on the BLM-
managed lands, and (3) required that BLM lands be managed for 
``multiple use and sustained yield.''
    FLPMA itself, as well as the current BLM regulations, mandate the 
involvement of state and local governments and Indian tribes 
(collectively ``local governments'') in the BLM's decisionmaking 
process. However, although the BLM claims that the draft Planning 2.0 
regulations do not change the BLM's ``practice'' in developing RMPs, 
some areas in the draft rules are a significant departure or the 
language of the agency's previous planning rules and in some cases a 
significant departure for the agency's interpretation of FLPMA. In my 
view, these changes are detrimental and severely limit local 
governments' involvement in the BLM planning process. The BLM's 
rationale for these changes makes no sense. Words mean something; thus, 
if there is no change ``in practice'' as the BLM claims, why is there a 
change in the language being used to support that practice?

A. General Comments:

  1.  The draft Planning 2.0 regulations would eliminate the mandatory 
            notification requirements from the BLM to impacted local 
            governments and replace them with a requirement that the 
            BLM only notify those local governments ``that have 
            requested to be notified or that the [BLM] responsible 
            official has reason to believe would be interested in the 
            resource management plan or plan amendment.'' In other 
            places, the new regulation replaces the required 
            notification requirements with the requirement for 
            notification to only those local governments the BLM 
            believes would be ``concerned with'' or ``interested in'' 
            the Federal land use plan.

  2.  Throughout the draft Planning 2.0 regulations, the BLM proposes 
            to replace the word ``shall'' and replace it with the word 
            ``will.'' Although some courts have determined that the 
            word ``will'' denotes a mandatory action, others have held 
            that the word ``will'' must be read in context to determine 
            its meaning. On the other hand, I found no court cases that 
            held that the word ``shall'' can have any other meaning 
            except a mandatory command. If this BLM change denotes ``no 
            change in practice,'' it is hard to understand why this 
            change is necessary.
  3.  FLPMA requires management of BLM lands for multiple use and 
            sustained yield. Nowhere in FLPMA does Congress allow the 
            management of BLM lands for ``social changes.'' However, 
            according to BLM draft Planning 2.0; ``Goal 1'' is to 
            ``improve the BLM's ability to respond to social and 
            environmental change in a timely manner.''

  4.  It is not clear how the draft Planning 2.0 rules intersect with 
            the requirements for environmental, economic and ``custom 
            and culture'' analysis pursuant to the National 
            Environmental Policy Act. For example, the draft Planning 
            2.0 rules describe BLM's planning as a two-step process 
            with the first step being for the BLM and public to 
            understand the current ``baseline in regards to resource, 
            environmental, ecological, social and economic conditions 
            in the planning area.'' NEPA also requires that baseline 
            information be gathered and additionally, that the status 
            quo management be the ``no action alternative.'' I believe 
            it is critical to ensure that the ``status quo'' or ``no 
            action alternative'' accurately reflect the current 
            baseline and not be some departure from analysis that 
            accurately describes exactly the conditions as they exist.

  5.  The comment period for review of draft land use plans is 
            shortened from 90 days to 60 days and the comment period 
            for review of land use plan amendments is shortened from 90 
            days to 45 days.

B. Local Government Involvement in BLM Land Management Plan Decisions:

    The BLM draft Planning 2.0 regulations represent a significant 
departure in the way that local governments can become involved in the 
BLM decisionmaking process. Specifically the draft regulations provide 
less opportunity for local governments to have meaningful and 
significant input in violation of FLPMA.

  1.  Consistency Review With Local Land Use Plans, Policies and 
            Programs

          a.   The draft Planning 2.0 regulations strictly limits the 
        types of local government plans that the BLM will consider as 
        part of its consistency review. Existing BLM regulations state 
        that:

    The BLM is obligated to take all practical measures to resolve 
conflicts between Federal and local government land use plans. 
Additionally, the BLM must identify areas where the proposed [BLM] plan 
is inconsistent with local land use policies, plans or programs and 
provide reasons why inconsistencies exist and cannot be remedied.
Sec. 1601.0-4 Responsibilities.
    The proposed regulations would shift responsibility for determining 
the deciding official and planning area from state directors to the BLM 
director. Westerners are concerned about this shift of responsibility 
farther away from the level at which plan components will be 
implemented. It is paramount that decisionmakers have first-hand 
knowledge of local resources, their uses, and benefits to communities. 
Additionally, designation of planning area boundaries from a national 
perspective to address landscape-scale priorities could lead to plan 
components that address national concerns while local concerns and 
impacts are obscured.
Sec. 1601.0-5 Definitions.
    This section would modify, delete, and create new terms. Rather 
than addressing changes here, each will be addressed under their 
corresponding section of the proposed rule.
Sec. 1601.0-8 Principles. (Emphasis added)
    The existing rule requires BLM to consider the impacts of RMPs on 
local economies and uses of adjacent or nearby non-Federal lands. The 
proposed rule would expand the consideration of impacts to include, 
``resource, environmental, ecological, social, and economic conditions 
at appropriate scales.'' One could agree with the expanded array of 
impacts to consider; however, the analysis of impacts of a RMP must 
focus primarily on local impacts.
    Local communities, economies, customs, and culture are most 
impacted by changes in Federal land management. While impacts at the 
regional or national scale are important, they must not be the focus of 
an impacts analysis. Westerners are opposed to the proposed language 
that makes the scale of analysis a subjective determination which could 
lead to masking of local impacts. Assessing impacts at the local level 
is necessary, appropriate, and should be required.
Sec. 1610.1-1 Guidance and general requirements. (Emphasis added)
    The description of guidance in the proposed regulation is similar 
to existing regulation. However, existing regulations at 
Sec. 1610.1(a)(3) require that state level guidance be developed, ``. . 
. with necessary and appropriate governmental coordination . . .'' This 
is a significant and unjustified change from current regulation. 
Coordination and consistency with state, local, and tribal plans and 
policies are paramount to successful planning efforts and required by 
FLPMA. Policies, analysis requirements, planning procedures, and other 
instructions have a major effect on the outcome of land management 
planning. The existing coordination and consistency requirements for 
guidance should be included in the proposed regulation.
    Existing Sec. 1610.1(b) would be removed because proposed 
Sec. 1601.0-4 provides the direction for determining future planning 
areas. As stated above, expansion of planning areas to achieve national 
objectives could lead to local impacts being ignored. One can 
understand the need to have flexibility in determining planning areas; 
however, matters of importance to local communities must not be 
disregarded.
    The proposed Sec. 1610.1-1(c) would stipulate that BLM will use 
high quality information to inform land management planning. The 
definition of high quality information at proposed Sec. 1601.0-5 
contains no direction regarding the use of up-to-date information. In 
situations where the best available scientific information is outdated, 
its use could lead to misinformed decisions.
Sec. 1610.1-2 Plan components. (Emphasis added)
    The proposed Sec. 1610.1-2(a) describes the required goals and 
objectives that would provide desired outcomes and resource conditions 
that all other plan components must support. Goals are described as 
desired outcomes that address resource, environmental, ecological, 
social, or economic characteristics toward which management should be 
directed, and objectives are desired resource conditions developed to 
guide progress toward goals.
    All other plan components must be designed to achieve the goals and 
objectives. This hierarchy creates a situation where all plan 
components are subordinate to goals. Section 102(a)(7) of FLPMA states, 
``goals and objectives be established by law as guidelines for public 
land use planning, and that management be on the basis of multiple use 
and sustained yield unless otherwise specified by law.'' To comply with 
FLPMA, the proposed regulation should require that RMPs include 
multiple use and sustained yield goals.
    The existing regulation at Sec. 1601.0-5(n)(2) requires that RMPs 
include, ``Allowable resource uses . . . and related levels of 
production or use to be maintained.'' This, or similar, language should 
be carried forward as a required goal in the proposed planning rule. 
FLPMA, at Section 103(l), defines the principal or major uses of 
Federal land. These uses should have specific requirements as plan 
components in the proposed rule.
Sec. 1610.1-3 Implementation Strategies. (Emphasis added)
    The proposed rule would make inclusion of implementation strategies 
in a RMP discretionary. Implementation strategies are described as 
management measures, monitoring procedures, or other strategies that 
assist in implementing future actions on Federal land. Implementation 
strategies would not be a plan component, and thus, changes to 
implementation strategies would not require a plan amendment or formal 
public involvement and interagency coordination.
    BLM's need to be able to update implementation strategies in a 
timely manner as new information or techniques become available is 
understandable. However, this should not be done behind closed doors. 
Public input as well as the coordination and consistency requirements 
with state, local, and tribal governments should apply to development 
and update of implementation strategies. Local input is vital to 
ensuring the most suitable implementation strategies are used. State, 
local, and tribal governments have expertise germane to the development 
of implementation strategies and must be involved beyond the proposed 
30 day review period prior to implementation.
    FLPMA at Section 202(c)(9) requires BLM to, ``. . . coordinate the 
land use inventory, planning, and management activities . . .'' with 
state and local governments. Implementation strategies are described in 
the proposed regulation and the preamble as management measures, 
practices, and actions BLM may take to implement an RMP. The proposed 
regulations violate FLPMA in stating that implementation strategies are 
not subject to coordination and consistency requirements with state, 
local, and tribal governments.
Sec. 1610.2 Public Involvement.
    The proposed rule distinguishes between opportunities for public 
review and formal comment. Public review, while providing a certain 
level of transparency, does not constitute meaningful involvement.
    Existing regulations require BLM to accept formal comment for 
proposed planning criteria, draft RMP and environmental impact 
statement (EIS), and significant changes made to a proposed plan prior 
to approval. The proposed regulations would only provide opportunity 
for formal comment for the draft RMP and EIS and any significant 
changes made to a proposed plan prior to approval. There are many new 
opportunities for public review, but this places no requirement on the 
BLM for considering outside input.
    The proposed Sec. 1610.2-2 would reduce the minimum comment period 
of 90 days for RMPs and EIS level amendments to 60 and 45 days 
respectively. EISs are large and complex documents that must be 
analyzed in detail in order to provide substantive comments. By its 
very nature, any EIS level analysis represents a major Federal action 
with significant impacts. Westerners suggest that the minimum 90 day 
comment period for any EIS level analysis be carried forward in the 
proposed regulations.
Sec. 1610.3-1(d)(1), (2), (3) Coordination with other Federal agencies, 
        state and local governments, and Indian tribes. (Emphasis 
        added)
    In contrast, the draft Planning 2.0 regulations would eliminate any 
consistency review for local land use ``policies, programs and 
processes'' and only consider inconsistencies with ``an officially 
adopted land use plan.'' This change would require a local government 
to have a ``land use plan,'' and not just a land use policy or program 
for consistency review. This type of language will limit many local 
governments' ability to take advantage of the consistency review 
requirements if they do not have an ``officially approved or adopted 
land use plan.''
    Proposed Sec. 1610.3-1(a) would prescribe that coordination be 
accomplished, ``. . . to the extent consistent with Federal laws and 
regulations applicable to public lands, and the purposes, policies and 
programs of such laws and regulations.'' Coordination should be 
conducted in manner consistent with Federal law; however, coordination 
is not subordinate to regulations, purposes, policies, and programs of 
such laws. In fact, these regulations, purposes, policies, and programs 
should be developed in coordination with state, local, and tribal 
governments to meet the intent of FLPMA.
    We support the expanded involvement of cooperating agencies under 
proposed Sec. 1610.3-1(b). Our experiences as a cooperating agency in 
the past have been somewhat disappointing due to the lack of meaningful 
involvement in the planning process. It is imperative that BLM provide 
cooperating agencies with ample opportunity to provide input and ensure 
that input is incorporated into planning efforts.
    The preamble requests comment regarding engagement of eligible 
governmental entities during the proposed assessment step which would 
be prior to formalizing a cooperating agency agreement. Coordination 
should be a continual dialogue between BLM and engaged state, local, 
and tribal governments. BLM should take steps to encourage this 
dialogue with all governmental entities with interests germane to the 
development of Federal land management plans. If coordination is 
occurring, involvement prior to a formal cooperating agency agreement 
should already be taking place.

          b.   The draft Planning 2.0 regulations eliminates this 
        entire section from the existing regulations:

                  (d)   In developing guidance to Field Manager, in 
                compliance with section 1611 of this title, the State 
                Director shall:

                    (1)   Ensure that it is as consistent as possible 
                with existing officially adopted and approved resource 
                related plans, policies or programs of other Federal 
                agencies, state agencies, Indian tribes and local 
                governments that may be affected, as prescribed by 
                Sec. 1610.3-2 of this title;

                    (2)   Identify areas where the proposed guidance is 
                inconsistent with such policies, plans or programs and 
                provide reasons why the inconsistencies exist and 
                cannot be remedied; and

                    (3)   Notify the other Federal agencies, state 
                agencies, Indian tribes or local governments with whom 
                consistency is not achieved and indicate any 
                appropriate methods, procedures, actions and/or 
                programs which the State Director believes may lead to 
                resolution of such inconsistencies.
Sec. 1610.3-1(d).
    In other words, local government involvement would be limited to 
ONLY BLM land use plans and not the guidance provided from the BLM 
State Director to develop such land use plans.

          c.   BLM is also proposing to weaken its consistency review 
        requirements by adding that consistency with local land use 
        plan will only be ``to the maximum extent the BLM finds 
        practical and consistent with the purposes of FLPMA and other 
        Federal law and regulations applicable to public lands, and the 
        purposes policies and programs of such laws and regulations.''

    In contrast, the existing regulations require that:

                  (a)   Guidance and resource management plans and 
                amendments to management framework plans shall be 
                consistent with officially approved or adopted resource 
                related plans, and the policies and programs contained 
                therein, of other Federal agencies, state and local 
                governments and Indian tribes, so long as the guidance 
                and resource management plans are also consistent with 
                the purposes, policies and programs of Federal laws and 
                regulations applicable to public lands, including 
                Federal and state pollution control laws as implemented 
                by applicable Federal and state air, water, noise, and 
                other pollution standards or implementation plans.

                  (b)   In the absence of officially approved or 
                adopted resource-related plans of other Federal 
                agencies, state and local governments and Indian 
                tribes, guidance and resource management plans shall, 
                to the maximum extent practical, be consistent with 
                officially approved and adopted resource related 
                policies and programs of other Federal agencies, state 
                and local governments and Indian tribes. Such 
                consistency will be accomplished so long as the 
                guidance and resource management plans are consistent 
                with the policies, programs and provisions of Federal 
                laws and regulations applicable to public lands, 
                including, but not limited to, Federal and state 
                pollution control laws as implemented by applicable 
                Federal and state air, water, noise and other pollution 
                standards or implementation plans.
Sec. 1610.3-2(a), (b).
    In other words, under the existing regulations, so long as a local 
land use plan, policy or program was consistent with Federal statute, 
the local land use plan, policy or program would be included in the 
consistency review analysis by the BLM. Under draft Planning 2.0, the 
local land use plan is required to be (at least in the opinion of the 
BLM) consistent with Federal law, and ``the purposes, policies and 
programs of such laws and regulations.'' Requiring that local land use 
plans be consistent with BLM policies and programs significantly 
diminishes the ability of local governments to influence these same BLM 
policies and programs. For example, FLPMA mandates ``multiple use and 
sustained yield.'' Describing the policy for how such multiple use is 
to be achieved is exactly the type of information that can and should 
be included in a local land use plan. Under the draft Planning 2.0 
regulations, however, the local government would be prohibited from 
including a policy to achieve multiple use in a local land use plan 
that is different from the BLM's policy for achieving multiple use. 
This draft rule significantly limits the scope of what can be included 
in a local land use plan.

          d.   There is also a shift in the burden of showing that an 
        inconsistency exists from the BLM to the local governments. 
        Specifically, under the draft 2.0 Planning regulations, the BLM 
        will only consider inconsistencies with a local land use plan 
        if the BLM is specifically notified, in writing, about a 
        specific inconsistency.

          e.   The BLM is proposing to change the phrase ``assist in 
        resolving, to the extent practical and consistent with Federal 
        law, inconsistencies between Federal and non-Federal Government 
        plans.'' (Emphasis added). The original word used on this 
        section was ``practicable'' rather than ``practical.'' Although 
        the BLM claims that the change in wording is simply for 
        readability, these two words have different meanings. 
        Practicable is a more narrowly defined term meaning ``capable 
        of being put into practice.'' In contrast, ``practical,'' in 
        this context, means capable of being put to use.'' To 
        understand the distinction, synonyms of ``practicable'' are 
        possible, doable, and feasible; a synonym of ``practical'' is 
        useful or sensible. In terms of the consistency review, the BLM 
        then would propose to change the meaning of the requirements 
        from, the agency must assist in resolving inconsistencies to 
        the extent possible (practicable) to resolving inconsistencies 
        to the extent sensible or useful (practical).

  2.  Local Governments as Cooperating Agencies

          a.   Although the BLM claims it is only trying to be 
        consistent with existing practices and current BLM terminology, 
        the BLM is eliminating the term ``cooperating agency'' as used 
        in NEPA and replacing it with the term ``eligible governmental 
        entity'' as described in the Department of the Interior 
        regulations at 43 C.F.R. Sec. 46.225(a). According to the BLM 
        regulations, an ``eligible governmental entity'' can be 
        considered as a ``cooperating agency.'' Although it appears 
        that the definition of an ``eligible governmental entity'' is 
        similar to a ``cooperating agency,'' I think this change in 
        language is going to cause great confusion and may certainly 
        exclude some local government participation if the local 
        government does not understand that an ``eligible governmental 
        entity'' is the same as the more familiar ``cooperating 
        agency.''

          b.   Of greater concern is the BLM's addition of the term 
        ``as feasible and appropriate'' given the eligible governmental 
        entities' ``scope of their expertise.'' Although BLM states 
        that it intends no change from current practice or policy, this 
        language could certainly be used by the BLM to strictly define 
        a local government's special expertise or to determine that 
        local government participation is not ``feasible or 
        appropriate'' if adopted by the draft Planning 2.0 regulations.

          c.   Additionally, the BLM authorized officer would no longer 
        be required to notify the BLM State Director if a request for 
        ``cooperating agency'' is denied. Under the existing 
        regulations, if a BLM authorized officer denies a request for 
        cooperating agency, he shall notify the State Director who 
        shall conduct an independent review to determine if the denial 
        was appropriate. That State Director's review would be 
        eliminated under the draft planning 2.0 regulations.

  3.  Coordination

    FLPMA requires that the BLM ``coordinate'' its plans and programs 
with those of state and local governments, although the statute is 
silent on how such ``coordination'' is to occur. Under any definition 
however, ``coordination'' implies some measure of input and trying to 
work together. In contrast, under the draft Planning 2.0 regulations, 
``coordination'' would only include the BLM providing to local 
governments ``the opportunity for review, advice and suggestions on 
issues and topics which may affect or influence other agency or 
governmental programs.'' Additionally, while currently ``coordination'' 
is to occur ``consistent with Federal laws,'' the draft Planning 2.0 
regulations would also add that ``Coordination'' would occur consistent 
with ``the purposes, policies and programs of use [Federal] laws and 
regulations.'' The policies under the Federal statutes can change with 
the President, Secretary of the Interior and BLM Director in control at 
the time. That may limit the ability of local governments to coordinate 
in some circumstances.

  4.  Governor's Consistency Review

    The new draft Planning 2.0 rules place more work on the Governor 
during the ``Governor's Consistency Review.''

          a.   The Governor is required to identify inconsistencies 
        between state and local government plans to bring to the 
        attention of the Director of the BLM. The BLM will only 
        consider ``identified'' inconsistencies between state and local 
        plans and the proposed resource management plan if such 
        inconsistencies are noted by the Governor.

          b.   BLM will only accept the Governor's recommendation if 
        the BLM Director determines that the Governor's recommendations 
        ``provide for a reasonable balance between the national 
        interest and the state's interest.''

    Proposed Sec. 1610.4(a)(2) requires the responsible official to 
identify relevant national, regional, or local policies, guidance, 
strategies, or plans to inform the assessment. It is paramount that the 
deciding official coordinate with state, local, and tribal governments 
when making the relevance determination for their plans, policies, and 
programs. BLM is required by FLPMA to keep apprised of and seek 
consistency with state, local, and tribal plans. Westerners suggest 
that language from existing Sec. 1610.4-4(e), ``Specific requirements 
and constraints to achieve consistency with policies, plans, and 
programs . . .'' of state, local, and tribal governments, be 
incorporated as a requirement for the assessment. Identification of 
potential issues at the earliest possible stage of planning should make 
RMP development more efficient.
    Proposed Sec. 1610.4(c)(5) list 10 separate types of areas of 
importance to be include in the assessment. Why are these 10 types of 
resources singled out from the inventory of all public lands and their 
resource and other values required by Section 201 of FLPMA? Under what 
authority does BLM place a greater degree of importance on the listed 
resources over other resources on Federal land?
    This effectively creates new types of administrative special 
designations. The only administrative special designation authorized by 
FLPMA is an area of critical environmental concern (ACEC). ACECs must 
meet relevance and importance criteria in addition to requiring special 
management attention. The existing and proposed regulations include 
identification of potential ACECs. Are these areas of importance going 
to be subject to the requirements for ACEC designation? If not, where 
does BLM get the authority to create these new special designations?
    Proposed Sec. 1610.4(c)(5) requires the assessment to consider, 
``The various goods and services, including ecological services, that 
people obtain from the planning area . . .'' Why are ecological 
services singled out from the suite of goods and services that people 
obtain from Federal lands? Section 103(l) of FLPMA states, ``The term 
``principal or major uses'' includes and is limited to, domestic 
livestock grazing, fish and wildlife development and utilization, 
mineral exploration and production, rights-of-way, outdoor recreation, 
and timber production.'' Through FLPMA, it is clear that Congress 
intended that BLM planning place priority on the principle or major 
use. The proposed regulations should specifically require that 
sustained levels of the principal or major uses be addressed in the 
assessment and throughout the planning process.
    The assessment report provides the foundation from which a RMP is 
developed. Proposed Sec. 1610.4(d) provides that the planning 
assessment report will be made available for public review. We request 
that BLM include a formal comment period with the release of the 
planning assessment report.
Sec. 1610.5 Preparation of a resource management plan.
    Proposed Sec. 1610.5-1(a) requires the preparation of a preliminary 
statement of purpose and need for the RMP. The preamble states that 
this statement informs the development of all subsequent steps in the 
preparation of a RMP. Given that this statement of purpose and need 
provides the foundation for development of a RMP, why is it only 
available for public review and not formal comment? This central part 
of the planning process must be subject to formal public comment as 
well as coordination and consistency requirements with state, local, 
and tribal governments.
    Proposed Sec. 1610.5-2 describes how preliminary alternatives and 
the preliminary rationale for alternatives would be developed and made 
available for public review. This part includes that BLM may change the 
preliminary alternatives or rationale based on public suggestions or 
other information received. If BLM anticipates receiving unsolicited 
information that merits change to the alternatives, would it not be 
prudent to have a formal comment period for preliminary alternatives?
    The basis for analysis of alternatives is described at proposed 
Sec. 1610.5-3. The estimated effects of alternatives provide 
justification for alternative selection, a record of decision, and RMP 
implementation. Procedures, assumptions, and indicators used to analyze 
alternatives must be valid, and formal involvement, beyond public 
review, is essential at this important step.
    The preamble for proposed Sec. 1610.5-4 requests comment regarding 
whether BLM should have the option to select one, multiple, or no 
preferred alternatives in draft RMPs. Implementation of a RMP or 
amendment can take many years due to a variety of factors including 
litigation. Consistent access to resources on BLM lands is foundational 
to many economies. A single preferred alternative provides some measure 
of what to expect for businesses that rely on access to BLM lands for 
their operations. We request that BLM continue to select a preferred 
alternative for RMPs and amendments and provide a robust explanation of 
the reasoning behind selection of the alternative.
    Proposed Sec. 1610.5-5 provides for preparation of the proposed 
RMP, final EIS, and implementation strategies. For reasons stated 
above, we are opposed to implementation strategies being developed 
without formal public input and the coordination and consistency 
requirements with plans, policies, and programs of state, local, and 
tribal governments.
Sec. 1610.6 Resource management plan approval, implementation and 
        modification.
    Proposed Sec. 1610.6-2(a) describes who may protest a RMP and what 
issues may be protested. Existing regulations at Sec. 1610.5-2(a) 
provide that issues submitted for the record during the planning 
process may be protested. The proposed Sec. 1610.6-2(a) limits protests 
to issues submitted for the record during preparation of the RMP or 
plan amendment. As stated in proposed Sec. 1610.4, the BLM must 
complete a planning assessment before initiating the preparation of a 
RMP. Thus, issues associated with the assessment report are not subject 
to protest. As stated above, the assessment report is a foundational 
document for a RMP and should be open to official comment and protest.
    Proposed Sec. 1610.6-2(a)(3) describes the content requirements for 
a protest. Protests would have to include a concise statement of why a 
plan component is inconsistent with Federal laws or regulations 
applicable to Federal lands, or the purposes, policies, and programs of 
such laws and regulations along with how the issue was raised during 
preparation of the RMP. Existing regulations at Sec. 1610.5-2(a)(2)(v) 
allow for a protest to be based on, ``A concise statement explaining 
why the . . . decision is believed to be wrong.'' The proposed 
regulation may result in dismissal of valid protests.
    A significant amount of discretion is afforded to the responsible 
official in developing a RMP or amendment. This discretion applies to 
high quality information, assumptions, methodologies, interpretations, 
and procedures used in the analysis to justify decisions. A valid 
disagreement regarding any of these discretionary planning tools may 
not directly conflict with Federal law but should be considered a valid 
protest. The proposed regulations should be revised to ensure that 
protests of this nature are not dismissed.
    Existing regulations for monitoring and evaluation of RMPs at 
Sec. 1610.4-9 include the requirement for BLM to determine, ``. . . 
whether there has been significant change in the related plans of other 
Federal agencies, state or local governments, or Indian tribes . . .'' 
to warrant amendment or revision of a plan. This is an important part 
of BLM's responsibility to keep apprised of state, local, and tribal 
land use plans as mandated by Section 202(c)(9) of FLPMA. The proposed 
Sec. 1610.6-4 should include this important component of monitoring and 
evaluation.
Sec. 1610.8-2 Designation of areas of critical environmental concern.
    ACEC designation is an important part of BLM planning. The special 
management attention required by designated ACECs can have a 
significant impact on resource use and management. Under existing and 
proposed regulations, both the relevance and importance criteria must 
be met in order for an ACEC to be designated. These criteria are 
entirely subjective. Existing Sec. 1610.7-2 includes, ``. . . requires 
qualities of more than local significance . . .'' with the importance 
criteria. Proposed Sec. 1610.8-2 would remove this requirement. While 
this is also a subjective term, it does construe that some level of 
importance beyond the local level is needed to designate an ACEC. The 
preamble states this is vague and unnecessary, and many examples exist 
where local significance has been determined to meet the importance 
criteria. These ACECs did not meet the current regulatory requirements 
of an ACEC and should not have been designated.
    Existing regulations recognize the importance of resource use 
limitations or special management attention that is required for ACECs. 
This is the reason for the required Federal Register notice 
specifically identifying proposed ACECs along with their use 
restrictions and the 60-day formal comment period. NMDA requests that 
his formal notice and comment period be retained in the proposed 
regulations.
    In summary, these draft Planning 2.0 regulations detrimentally 
deprive local governments of the ability to influence BLM land use 
plans. By placing such significant constraints on local governments, 
the entire premise behind the ``government-to-government'' interaction 
is weakened.

                                 ______
                                 

    Mr. Gohmert. Thank you very much, Ms. Cowan.
    At this time, the Chair will recognize Mr. Fisher for 5 
minutes. You may proceed.

STATEMENT OF COREY FISHER, SENIOR POLICY DIRECTOR, SPORTSMEN'S 
    CONSERVATION PROJECT, TROUT UNLIMITED, MISSOULA, MONTANA

    Mr. Fisher. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to testify on the proposed rule 
for the Bureau of Land Management's Planning 2.0 initiative.
    My name is Corey Fisher, and I am the Senior Policy 
Director for Trout Unlimited's Sportsmen's Conservation 
Project. Trout Unlimited is a national nonprofit organization 
with a mission to conserve, protect, and restore America's cold 
water fisheries and their watersheds. I am here to share the 
perspective of an important public land user group--that is 
hunters and anglers.
    I live in western Montana with ready access to lands 
managed by the Forest Service and the Bureau of Land 
Management. These are the places that I hunt and fish. It is 
from these lands that I feed my family with deer and elk that I 
hunt. And I am not alone. According to the U.S. Fish and 
Wildlife Service, one out of every three hunters in America 
hunts on public lands. In Montana, the number is 80 percent. 
Public lands are central to America's hunting and fishing 
heritage. For that to continue, our lands, and the fish and 
wildlife habitat they support, need to be well managed, and 
that starts with sound management plans.
    Through my work with Trout Unlimited, I have been involved 
in public land planning efforts throughout the West; and I have 
found that a plan is only as good as the process used to 
develop it. In my experience, a sound process includes four 
components: early-and-often stakeholder involvement, 
collaboration, a transparent process, and responsiveness to 
issues on the ground.
    At times, BLM planning efforts have resulted in 
disenfranchised stakeholders due to a lack of meaningful 
involvement. Resource management plans need to be a 
partnership, and a partnership means more than a handful of 
cursory comment periods. Changes proposed by Planning 2.0 will 
provide a continuum of engagement that I believe will result in 
more durable plans that meet the needs of fish and wildlife 
managers, sportsmen, local government, and stakeholders. A lot 
of people like to talk about collaboration, but for Trout 
Unlimited, this is not a buzz word. Our organization is built 
on partnerships, and we take collaboration seriously. We know 
that when people sit down and find shared values, solutions are 
not far behind. That does not mean that collaboration is easy; 
it is not, but the kind of early-and-often involvement 
envisioned by Planning 2.0 will help foster collaboration and 
implement solutions built from the ground up.
    Transparency needs to be at the center of any effective 
planning process. Without transparency, there is no trust; and 
without trust, there is no collaboration. The proposed rule 
improves transparency in several ways, such as making 
preliminary alternatives available to the public and providing 
the rationale for these alternatives. Resource management 
planning needs to be more than a perfunctory exercise. It needs 
to craft real solutions to address challenges on the ground. 
The proposed assessment phase will engage stakeholders to help 
identify these issues from the very beginning of the planning 
process.
    Additionally, Planning 2.0 recognizes that land management 
issues do not follow administrative boundaries. Now, that does 
not mean that planning should encompass vast landscapes without 
cause; but if a big game migration corridor or a Blue Ribbon 
trout steam happens to extend across field office boundaries or 
state office boundaries, this is an on-the-ground issue that 
needs to be addressed holistically and with consistency.
    Local government stakeholders have raised concerns with 
certain aspects of the proposed rule, and these concerns need 
to be meaningfully addressed. I believe that the proposed rule 
is a good start. Planning 2.0 will improve transparency, 
provide a continuum of public involvement, engage citizens 
early and often, better address on-the-ground issues, and make 
for a more nimble agency that is responsive to change.
    Our hunting and fishing traditions face many challenges; 
but one of them should not be a cumbersome, outdated, and 
ineffective planning process for America's public lands. We can 
do better, and I believe that Planning 2.0 will provide a path 
forward.
    Thank you for the opportunity to testify. I will be happy 
to answer any questions.

    [The prepared statement of Mr. Fisher follows:]
   Prepared Statement of Corey Fisher, Senior Policy Director, Trout 
              Unlimited's Sportsmen's Conservation Project
    Thank you for the opportunity to testify on this important issue 
before the House Natural Resources Committee's Subcommittee on 
Oversight and Investigations.
    My name is Corey Fisher and I am the Senior Policy Director for 
Trout Unlimited, a national non-profit conservation organization with 
more than 150,000 members organized into about 400 chapters from Maine 
to Alaska. Our mission is to conserve, protect and restore North 
America's coldwater fisheries and their watersheds. Trout Unlimited 
chapters invest thousands of volunteer hours on their local streams and 
rivers to restore habitat for trout and salmon fisheries, and they 
invest considerable time in conducting youth conservation and fly 
fishing camps, veterans service programs, community events and taking 
kids fishing.
    Trout Unlimited's conservation work on public lands focuses on 
engaging with local, state and Federal partners to find solutions that 
balance multiple interests and uses. This work is multi-faceted, but 
whether promoting responsible energy development, engaging in travel 
management planning, cleaning up pollution from abandoned mines, or 
restoring trout streams, all of this work begins with sound resource 
management planning.
    My work with Trout Unlimited is to ensure that public land 
management in the West is guided by policies that conserve fish and 
wildlife habitat. This work is more than a vocation for me--America's 
public lands are part of who I am. Dinner for my family usually 
features meat from deer and elk that were hunted on public lands. When 
I go hunting and fishing, more often than not, public lands are the 
places I go. Vacations don't include resorts and spas, they feature 
backpacking and river trips in the backcountry. I am fortunate to live 
in the midst of both Forest Service and Bureau of Land Management (BLM) 
lands, and I cannot imagine life without well-managed public lands and 
the outdoor traditions that they sustain.
    The BLM manages about 247 million acres of America's public land, 
much of it offering excellent hunting, fishing and recreational access. 
For many sportsmen in the West, when they talk about hunting and 
fishing, they are talking about BLM managed public lands. Some of my 
best memories in the outdoors have occurred on BLM lands, including 
canoeing and fishing the Missouri River Breaks, my first antelope hunt 
in Montana's Centennial Valley, and elk hunting in a couple of spots 
that will remain nameless.
    So it is both a professional and a personal interest through which 
I approach resource management planning and the BLM's Planning 2.0 
initiative.
                resource management planning challenges
    Throughout the past decade I have been engaged with numerous land 
use planning efforts in Montana, Utah, Wyoming, New Mexico and 
Colorado. While each of these planning processes and locations have had 
their own unique aspects, they all featured one commonality: the need 
for early, frequent and meaningful public engagement. Unfortunately, 
that hasn't always happened.
    All too often, it seemed that the BLM would announce that they were 
going to develop a new resource management plan and take public scoping 
comments. Then they would disappear, often for years, only to release a 
draft plan that may or may not have dealt with the issues initially 
raised by the public. Following another public comment period, the 
Agency would disappear again, and after another wait measured in years, 
a final plan would eventually be released, which may or may not have 
reflected the public comment received at the draft stage. Then an 
aggrieved group would sue the Agency, further bogging down the process.
    While this illustration may be a bit oversimplified, it is not far 
from the reality of how the BLM has typically developed resource 
management plans in past years. In addition to being an inefficient and 
ineffective process, it has led to disenfranchised public land 
stakeholders who at times view the BLM as an unresponsive, closed off 
agency. This is a problem that the BLM's Planning 2.0 initiative 
strives to fix.
 planning 2.0 seeks to improve the resource management planning process
    Two years ago, the BLM announced that it was launching Planning 
2.0. with a stated objective to improve ``our land use planning process 
so that we can more effectively plan across landscapes at multiple 
scales and be more responsive to environmental and social change.''
    From the beginning of Planning 2.0, Trout Unlimited and other 
sportsmen groups participated in the BLM's process, including providing 
the Agency with public comments and participating in public listening 
sessions. Trout Unlimited's experience with resource management 
planning over the past decade has provided us with a perspective that 
we think will help result in a better end product for Planning 2.0, 
including what we hope will be a more transparent, inclusive process 
that provides meaningful collaboration among public land stakeholders.
    Now that a proposed rule has been released for public review and 
comment, I believe that Planning 2.0 is on the right track.

    As stated in the proposed rule, Planning 2.0 has three primary 
goals:

  1.  Improve the BLM's ability to respond to social and environmental 
            change in a timely manner.

  2.  Provide meaningful opportunities for other Federal agencies, 
            state and local governments, Indian tribes, and the public 
            to be involved in the development of BLM resource 
            management plans.

  3.  Improve the BLM's ability to address landscape-scale resource 
            issues and to apply landscape-scale management approaches.

    I will address each of these goals.
Being more responsive to social and environmental change is critical to 
        ensure healthy populations of fish and wildlife.
    Sound land management must adapt to the most current science and 
trends in fish and wildlife populations; a static resource management 
plan will quickly become obsolete. Current procedures for amending and 
updating resource management plans are time consuming and burdensome 
for both the agency and the public. Because of the difficulty of 
revising resource management plans, the documents often do not reflect 
changing conditions on the ground and fail to incorporate better data 
and science as they become available.
    For instance, throughout the West, the BLM is party to conservation 
agreements and MOUs with state agencies to recover sensitive native 
trout species, many of which have been reduced to a fraction of their 
historical range. While recent resource management plans have relied on 
the best available science to ensure that future opportunities to 
restore populations of native trout are not hindered by land use 
activities, older resource management plans either ignore the issue 
altogether, or allow development without necessary precautions to 
protect water quality in streams that are suitable for restoring trout 
populations.
    An example of responding to changing realities for fish and 
wildlife management comes from the BLM's recently approved Tres Rios 
Resource Management Plan, in which the agency recognized the need to 
conserve not only streams currently occupied by Colorado River 
cutthroat trout, but also streams that have been identified as 
reintroduction sites for these sensitive native fish. The Tres Rios is 
one of only a handful of resource management plans to include this kind 
of foresight. Not only will this help the BLM fulfill commitments in 
the conservation agreement for Colorado River cutthroat trout, it will 
help to ensure a bright future for these trout and the anglers who like 
to fish for them.
    A more responsive and efficient resource management planning 
process will allow the BLM to ensure that its planning documents remain 
current and reflect the present-day science of fish and wildlife 
management. By integrating monitoring strategies as a plan component, a 
feedback loop will inform the BLM and the public when relevant changes 
in circumstances necessitate a shift in management direction.
Meaningful public involvement will increase transparency and help to 
        put the public back in public land management.
    The proposed rule will add two additional opportunities for public 
involvement. First, a planning assessment phase would include an 
opportunity for the public (along with local, state and Federal 
agencies) to suggest issues and opportunities that a resource 
management plan revision should address and to help establish a current 
baseline of conditions on the ground.
    Second, the proposed rule would create the opportunity for the 
public to review and comment on preliminary management plan 
alternatives, allowing stakeholders to raise issues before the BLM 
begins developing the impact analysis, a critical juncture in the 
planning process.
    Taken together, these two new public involvement steps will ensure 
that the BLM starts resource management plans off on the right foot, 
and is still on the right track at the halfway point. This kind of 
early-and-often collaboration with the public will help to make for a 
more responsive, transparent agency.
    Instead of only two isolated comment periods, the proposed rule 
would create a continuum of collaboration with public land stakeholders 
that builds trust, fosters communication, increases efficiency and 
creates management plans that are responsive to on the ground issues 
that are important to public land users.
Landscape-scale planning will improve the management of fish and 
        wildlife habitat and create certainty across administrative 
        boundaries.
    Habitat requirements for fish and wildlife don't change due to 
arbitrary lines on maps. However, all too often land uses and fish and 
wildlife habitat are managed inconsistently across administrative 
boundaries. For instance, when Montana BLM's Butte Field Office adopted 
its resource management plan in 2009, resource professionals determined 
that a one-half mile development buffer was necessary to balance energy 
development with the conservation of native trout populations and 
rivers that have been awarded Blue Ribbon status, including the 
Yellowstone River. Yet, as the Yellowstone River flowed east into the 
Billings Field Office, no such stipulation was present, only a general 
restriction prohibiting development within riparian areas and the 100 
year flood plain. Indeed, it was not until September of last year that 
the Billings Field Office completed its revised resource management 
plan and put in place a development buffer of one-half mile for the 
Yellowstone River. In other words, for 6 years a trout could literally 
swim between two field offices in which the measures in place for its 
protection varied greatly.
    This kind of inconsistent management isn't only bad for trout; it 
is bad for anyone who values predictability for how our public lands 
will be managed. Those who make their living through resource 
extraction need certainty for how their activities will be managed, and 
sportsmen and women need certainty that America's public lands will 
remain a great place to hunt and fish. Development and conservation 
need not be mutually exclusive and landscape-scale planning will help 
to strike that balance, even if those landscapes happen to cross field 
office or state office boundaries.
           solutions require collaboration and communication
    While Planning 2.0 policies are not yet finalized, the BLM has been 
working with local stakeholders and county officials to apply some of 
the principles of Planning 2.0 in places like Park County, Colorado.
    Park County is home to South Park, which includes the headwaters of 
the South Platte River, one of just a handful of gold medal trout 
streams and a world-renown angling destination. In addition, the South 
Platte River is particularly important as the water supply for the 
majority of Coloradans, and the area supports robust herds of big game 
that provide some of the best hunting in the West.
    Given these attributes and an increased interest in oil and gas 
leasing, stakeholders proposed the area for a Master Leasing Plan as 
part of the upcoming resource management plan revision for the Royal 
Gorge Field Office. However, in 2012 the BLM denied the application, 
citing that although there was interest in leasing, because there were 
no producing oil and gas wells in the area, there was no reason to 
develop a Master Leasing Plan.
    Then something changed; the BLM listened. As the agency prepared to 
initiate a resource management plan revision, they heard from 
conservationists, sportsmen and the Park County Board of County 
Commissioners, all of whom advocated a forward-thinking plan for future 
energy development that would ensure impacts would be comprehensively 
addressed and mitigated. Today, the BLM has committed to developing a 
Master Leasing Plan for South Park and proposals submitted by the 
public and Board of County Commissioners are under consideration as the 
BLM develops draft alternatives for the revised resource management 
plan.
    Instead of plowing ahead and developing a plan that didn't meet the 
needs of local communities and public land users, the BLM heard from 
these stakeholders and changed course. It is this kind of collaboration 
and responsiveness that Planning 2.0 is all about--stakeholders working 
together to create a shared vision for managing our public lands.
    I know that there are concerns from some local and state 
stakeholders that their roles will be diminished by aspects of the 
Planning 2.0 proposal. TU always advocates for meaningful local and 
state stakeholder input opportunities into Federal land management 
decisions of all types. Our partnerships with the city of Durango in 
Colorado to pass the Hermosa Creek Watershed Protection Act, with the 
Sweetwater Board of County Commissioners to craft a responsible energy 
development plan for Little Mountain in southwest Wyoming, and with the 
state of Montana to restore trout populations on public lands, show 
that we care deeply about effective local and state involvement. We 
urge those with concerns to work with BLM throughout the comment period 
to ensure that their concerns are meaningfully addressed.
                               conclusion
    In closing, the status quo for how the BLM develops resource 
management plans is not acceptable. Resource management plans are not 
the BLM's plan, they are the public's plan for the management of our 
American lands, and the public needs to be engaged earlier and more 
frequently throughout the planning process.
    Planning 2.0 will improve transparency, provide a continuum of 
involvement throughout the planning process, engage citizens more 
meaningfully, and make for a more nimble agency that is responsive to 
change. These are outcomes that should be appreciated and supported by 
everyone who values meaningful public engagement in land use planning.
    Planning is the foundation of public land management and healthy 
populations of fish and wildlife on public land start with sound 
resource management plans. Our hunting and fishing traditions face many 
challenges, but one of them should not be a cumbersome, outdated and 
ineffective process for developing plans that will manage fish and 
wildlife habitat.
    The proposed rule is a good start, but it is just a start and it is 
important for the BLM to see this effort through and implement changes 
that work for local communities, America's public land users, and the 
agency itself.
    Thank you for the opportunity to testify.

                                 ______
                                 

    Mr. Gohmert. Thank you very much.
    At this point, Mr. Obermueller, you are recognized for 5 
minutes. You may proceed.

  STATEMENT OF PETE OBERMUELLER, EXECUTIVE DIRECTOR, WYOMING 
      COUNTY COMMISSIONERS ASSOCIATION, CHEYENNE, WYOMING

    Mr. Obermueller. Thank you, Mr. Chairman, Ranking Member 
Dingell, Representative Lummis, and members of the 
subcommittee.
    Let me just start out by acknowledging the fact that this 
is a very boring policy topic. Mention agency planning, and 
eyes glaze over all across America. That is simply a fact. It 
does not have the buzz, like fracking, endangered species 
conservation, or any of that. But make no mistake, that no 
matter what you or your constituency values with respect to 
Federal lands management, it is in these planning processes 
where those topics are first filtered. That is why they are so 
important. That is why they should not be overlooked, and why I 
thank you for taking the time to spend on this particular 
topic.
    We, in Wyoming, have spent a great deal of time in the 
counties building and maintaining a strong working relationship 
with the BLM at every level. That is why we take them at their 
word that their goal in Planning 2.0 is to provide a more 
nimble, responsive planning process that has meaningful local 
government involvement. We think there are steps that need to 
happen in order to actually realize that goal.
    Let me start by what the BLM gets right. The BLM starts out 
listing the five policy objectives for coordination with local 
government. I will summarize them: that the Agency will be 
mindful of local land use plans, will try to be consistent with 
those when they can, and will provide for meaningful public 
involvement and local government participation. We strongly 
support these, but recognize that these are the minimum 
requirements already required of the Agency under FLPMA.
    Congress got it right in FLPMA when it established local 
governments as the conduit for messaging what local communities 
need and desire in the public lands that they live near. 
Congress knew, and we strongly believe, that coordination with 
local governments is the single most important effort Federal 
agencies can undertake to build local buy-in, to diffuse 
tensions in the West, and to realize success on management 
objectives. Getting it right at this level means we will get it 
right at the project level.
    We fear that, as currently written, the rule takes steps 
away from FLPMA's coordination requirements, diminishes the 
role of cooperating agencies, and combines a move to centralize 
decisionmaking with the diffusion of local interests. In our 
official comments we will explain this in greater detail, but 
for now, let me focus on coordination and cooperating agencies.
    The BLM's current regulations allow the Agency to analyze 
local government policies and programs in the absence of an 
official land use plan. That is right. FLPMA is explicit in 
giving that authority. But the proposed rule indicates that 
they will only accept official land use plans. Other data 
generated by local governments will be accessible in the newly 
developed plan assessment phase, where all data will be given 
equal weight and attention. Apart from the departure from the 
plain language of FLPMA, there are two additional problems with 
that.
    Number one, putting local data on par with single-issue 
special interest groups diminishes the clear added 
authoritative weight that Congress gave local governments in 
FLPMA.
    And, number two, accepting only officially adopted land use 
plans is culturally insensitive to counties in the West that 
often do not have official land use plans, and likely never 
will have them absent significant electoral upheaval.
    Now, shift with me for a second to cooperating agencies. 
Think about cooperating agencies as the mechanics of how 
coordination works. When it is working, counties that are 
actively involved as a cooperating agency enjoy an added level 
of responsiveness from the agencies that is not available to 
the general public, as has been pointed out. But this is as it 
should be, because county commissioners are often the only 
people in the room on the day-to-day planning process who have 
both a broad policy perspective and are directly accountable to 
the public.
    We appreciate that the BLM actually mirrors a significant 
amount of CEQ's cooperating agency guidelines in this rule, but 
they have some caveats that cause concern. One is that they 
indicate that counties will participate in this process, ``as 
feasible and appropriate, given the scope of their expertise 
and the constraints of their resources.'' We appreciate their 
recognition of limited local government resources; but quite 
frankly, the counties in Wyoming have been proactive and 
intentional about making sure we are invited to the table, 
about developing MOUs with the BLM, and going above and beyond 
to work with the BLM in order to realize the success of these 
plans. We believe that the scope of county participation can be 
developed jointly in that MOU rather than dictated by the BLM 
as this language seems to imply.
    Mr. Chairman, there is a lot to talk about on this issue. 
Let me just end by saying that counties in Wyoming are 
committed to being engaged with the BLM in a meaningful way; 
and we would urge the BLM to show an equal level of commitment 
to being engaged with us.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Obermueller follows:]
  Prepared Statement of Pete Obermueller, Executive Director, Wyoming 
                    County Commissioners Association
    Chairman Gohmert, Ranking Member Dingell, and members of the 
Subcommittee on Oversight and Investigations, thank you for the 
opportunity to testify today on the Bureau of Land Management's (BLM) 
Planning 2.0 proposed rule.
    My name is Pete Obermueller. As the Executive Director of the 
Wyoming County Commissioners Association, I represent the Boards of 
County Commissioners in all 23 of Wyoming's counties.
    In Wyoming, the BLM manages approximately 18 million surface acres, 
and over 40 million subsurface acres in 22 of the state's 23 counties. 
By necessity, elected County Commissioners all across the state are 
actively engaged in Federal resource management plan revisions or 
amendments in various stages, NEPA analyses, Resource Advisory 
Committees, informal working groups, regional and national task forces 
on Federal land issues, as well as their own locally derived land use 
plans and management programs.
    In each of Wyoming's counties and within our Association, we pride 
ourselves on our constructive efforts to engage with Federal partners 
in meaningful ways that helps produce defensible results. The rights 
granted to counties under the Federal Land Policy and Management Act 
(FLPMA) is the statutory avenue for local involvement in Federal land 
use planning. Wyoming's counties take that duty very seriously, and 
thank this committee for its oversight on this rule proposal.
    The BLM's stated purpose of Planning 2.0 is to ``promote the 
principles of multiple use and sustained yield on public lands . . . 
[and] ensure participation by the public, state and local governments, 
Indian tribes and Federal agencies . . .'' Further, the agency proposes 
five objectives of coordination. They are:

  1.  Keep apprised of non-BLM plans;

  2.  Assure that the BLM considers those plans that are germane in the 
            development of resource management plans for public lands;

  3.  Assist in resolving, to the extent practical, inconsistencies 
            between Federal and non-Federal Government plans;

  4.  Provide for meaningful public involvement of other Federal 
            agencies, state and local government officials, both 
            elected and appointed, and Indian tribes, in the 
            development of resource management plans, including early 
            notice of final decisions that may have a significant 
            impact on non-Federal lands; and

  5.  Where possible and appropriate, develop resource management plans 
            collaboratively with cooperating agencies.

    We support these objectives, caveated though they are, as they 
closely mirror the BLM's obligations under FLPMA. We applaud the BLM 
for bringing them to the forefront in this proposed rule as we have 
long held that coordination with local governments and local land use 
plans is the single most important effort the Federal Government can 
pursue to ensure local buy-in, diffuse tensions in the West, and 
realize ultimate success of land use plans or project specific 
environmental analyses.
    Wyoming's Commissioners have greatly appreciated the input we have 
been afforded by the BLM on the development of this rule over the past 
2 years. We have worked hard to develop a good working relationship 
with the BLM at all levels, and value our partnership with our Federal 
partners. That is why we were hopeful that the BLM would use this 
opportunity to enhance the local government role and identify new 
opportunities for intergovernmental cooperation. Unfortunately that is 
not the outcome of this proposed rule, at least not yet.
    Because of our fruitful engagement with the BLM, we take them at 
their word regarding their intentions to more closely coordinate with 
local governments under Planning 2.0. However, we remain concerned that 
the proposed rule as currently written takes steps away from the 
requirements placed upon the BLM for coordination in FLPMA, diminishes 
the role of cooperating agencies, and combines a move to centralize 
decisionmaking with a diffusion of local interests in ways that could 
lead to further marginalization of local governments and the 
communities they represent.
           coordination and the role of cooperating agencies
    It is important to recognize that while FLPMA provides the agency 
some implementation latitude, the initial obligation of coordination 
with counties is not discretionary. Section 202 of FLPMA requires the 
Secretary to, at a bare minimum, attempt consistency with local land 
use plans and provide for meaningful involvement of local officials. 
Section 202(c)(9) of FLPMA reads, in part:

        ``To the extent consistent with the laws governing the 
        administration of the public lands, [the BLM shall] coordinate 
        the land use inventory, planning, and management activities of 
        or for such lands with the land use planning and management 
        programs of other Federal departments and agencies and of the 
        States and local governments within which the lands are 
        located, including, . . . among other things, considering the 
        policies of approved State and tribal land resource management 
        programs.

        In implementing this directive, the Secretary shall, to the 
        extent he finds practical, keep apprised of State, local, and 
        tribal land use plans; assure that consideration is given to 
        those State, local, and tribal plans that are germane in the 
        development of land use plans for public lands; assist in 
        resolving, to the extent practical, inconsistencies between 
        Federal and non-Federal Government plans, and shall provide for 
        meaningful public involvement of State and local government 
        officials, both elected and appointed, in the development of 
        land use programs, land use regulations, and land use decisions 
        for public lands, including early public notice of proposed 
        decisions which may have a significant impact on non-Federal 
        lands.'' (43 U.S.C. 1712(c)(9))

    Any evaluation of the BLM's existing or proposed planning rules 
must begin with its adherence to the directives of its organic act. 
Here, Congress rightly identified local government as the appropriate 
conduit for the needs and desires of the public near Federal lands in 
the planning process. Counties fulfill that obligation in many ways, 
but not in identical ways. In Wyoming we continually stress the 
importance of being prepared to offer empirical data to back policy 
suggestions, but that effort can take many forms.
    Unfortunately the proposed rule goes beyond what is allowed under 
FLPMA by removing the current language that resource management plans 
be consistent with local ``policies and programs.'' The proposed rule 
limits the input of counties during the official planning process to 
only so-called ``official land use plans.'' Other data, no matter the 
quality or manner in which it was collected, will only be accepted in 
the newly conceived ``planning assessment'' phase. This is in direct 
contradiction to the plain language of FLPMA that requires an attempt 
at consistency with local ``management programs.''
    To be clear, we do not oppose the concept of the planning 
assessment. Early engagement with stakeholders is important. Rather, by 
placing data generated by local governments on par with other data 
submitted by single-focus special interest groups is a diminishment of 
the added authoritative weight Congress clearly intended local 
governments to possess. Additionally, it demonstrates a lack of 
sensitivity to the cultural norms of counties that for various reasons 
do not have official land use plans, and would be unable to produce one 
without significant electoral upheaval.
    As FLPMA provides the statutory requirement of coordination, it is 
Council on Environmental Quality (CEQ) regulations promulgated under 
the National Environmental Policy Act (NEPA) that provides for the 
specific mechanism for county involvement as a so-called ``Cooperating 
Agency.'' When it is working correctly, counties that participate in 
planning as a cooperating agency enjoy a level of engagement from the 
lead Federal agency not afforded to the general public. This is as it 
should be because often Commissioners are the only people involved in 
the day-to-day planning process with both a broad view of the benefits 
and impacts of management decisions, and who are directly accountable 
to the public. At a minimum, any planning rule advanced by the BLM 
should not substitute narrow special interests for broad policy views.
    To that end, we appreciate the proposed rule's attempt to mirror 
much of the CEQ Cooperating Agency process used in NEPA analyses. The 
proposed rule maintains the requirement of Federal agencies to invite 
cooperators to the table and solidifies the points at which cooperators 
will be consulted. The proposed rule adds an additional level of 
coordination with cooperating agencies at the ``planning assessment'' 
level. All of these are positive steps, but there are a few troubling 
limitations on cooperating agencies that must be addressed.

    First, in defining a cooperating agency, the proposed rule inserts 
this new caveat:

        ``Cooperating agencies will participate in the various steps of 
        the BLM's planning process as feasible and appropriate, given 
        the scope of their expertise and constraints of their 
        resources.'' (Proposed Rule at 9725)

    Recognition of the limited resources of local governments is 
appreciated. However, we do not believe it wise for the BLM to appoint 
itself as the arbiter of what is ``feasible and appropriate'' for 
cooperating agency participation. In many instances Wyoming's counties 
have gone well beyond expectations to provide not only meaningful 
comments, but additional resources to ensure that planning is as 
successful for their communities as possible. Because agencies only 
sometimes follow the requirement to coordinate, counties in Wyoming are 
proactive in seeking agency invitations and developing MOU's with our 
Federal partners. The scope of county participation can and should be 
determined in the MOU process and jointly agreed upon, not dictated by 
the BLM.
    Second, the proposed rule establishes a new, two-part process for 
resource management planning that includes ``plan components,'' or the 
high level strategic planning of a certain plan area; and 
``implementation strategies,'' or the actual boots-on-the ground 
efforts to implement the plan components. Cooperating agencies are 
included during the preparation of both, but excluded if the BLM 
desires to revise the implementation strategies. This exclusion during 
potential revisions jeopardizes successful implementation. Time and 
again we have found in Wyoming that the most successful plans and 
strategies are ones that have the support of local government. Without 
it the agency stands alone.
               local decisions vs. centralized authority
    The BLM's proposed rule goes to great length to describe the 
importance of shifting away from political boundaries and toward 
landscape-scale decisionmaking. It is certainly the case that some 
resource management plans encompass landscapes and wildlife habitat 
that cross county and state lines. Attempting to plan at a larger, 
regional level is not in itself a bad thing. In fact, doing so could 
help to rationalize some planning efforts that are difficult to solve 
in separate, smaller areas.
    However, in an effort to facilitate regional planning the BLM 
proposes to remove Field Managers and State Directors as the official 
with direct responsibility for drafting and approving resource 
management plans when those plans cross political boundaries. By 
substituting ``responsible'' and ``deciding officials'' appointed by 
BLM that may or may not be the regional manager or State Director, the 
agency runs the risk of setting itself up for failure by imposing a 
decisionmaker on a community with which he has no established 
relationship and no working knowledge of the custom and culture of the 
areas he now oversees.
    It might be tempting to view this concern as seeing boogey-men 
where none exist. Indeed we are more concerned with how the BLM plans 
to engage with local governments than who is specifically placed in 
charge. However, we simply cannot ignore this risk of separation from 
local officials when it is combined with proposals in the rule to 
significantly broaden the scope of the BLM's analysis beyond ``local 
economies'' toward enormous and nebulous analysis on ``environmental, 
ecological, and social conditions,'' and ``regional, national, and 
international'' dependence upon BLM resources. The BLM has a difficult 
enough time completing local analysis in a timely fashion without 
introducing topics that are likely well beyond their expertise and 
resource availability.
    We urge the agency to maintain its efforts to keep land use 
planning as local as possible, in terms of the people who write and 
approve the plans, the issues and areas for analysis, and in the 
process for developing and implementing them.
    Establishing a successful and defensible planning process is not an 
exciting policy topic. It does not carry Hollywood buzz like fracking, 
or command attention like endangered species. But make no mistake, 
every single agency action--whether issue-based like fracking or single 
species conservation, or place-based like Areas of Critical 
Environmental Concern--is first viewed through this over-arching 
planning lens. It is here, in the governing planning document where the 
filters are set for information gathering, where the scales can be 
tipped toward one interest group or another, and where the BLM 
establishes for itself guidelines that can either promote sound 
decisionmaking or incentivize protests and litigation.
    We appreciate that this committee has taken the time to explore 
this issue that is so fundamental to local participation in land use 
planning.

                                 ______
                                 

    Mr. Gohmert. I thank the gentleman.
    At this time, we will proceed with Members' 5 minutes of 
questioning. I will recognize myself for 5 minutes.
    Mr. Obermueller, you were saying that this may not be the 
most fun topic to be taking up, but I was surprised. We have 
had substantially more response from people around the country 
on this issue of this specific rule change than most any of the 
more glamorous issues we have taken up. People are very upset 
and very concerned, as they have a right to be.
    Mr. French, you had mentioned that 90 percent of your 
county is owned by the Federal Government. Is that correct?
    Mr. French. Yes, Mr. Chairman.
    Mr. Gohmert. And I know in Oregon, where there have been so 
many problems, we have seen--when you look at the map with the 
overlays of all the different Federal land that is owned or 
managed by the Federal Government, you end up seeing layer 
after layer added, where somebody starts out with a big ranch 
or a big piece of land, then one government entity gets land 
near them, and then before long they are surrounded. They start 
having problems with being denied access to their land and it 
creates hard feelings. I am curious. Do you know approximately 
when--I mean, was this 90 percent acquired by the Federal 
Government all at once, or was this over a period of time?
    Mr. French. This has been at one time. Ultimately, the 
Federal lands ownership in Nevada occurred right after the 
Civil War, when Nevada became a state. There were some state 
select lands that were offered to the state that are in private 
ownership now. Then, of course, the corridor for the Union 
Pacific Railroad has alternate sections that are privately held 
20 miles either side of that corridor.
    Most of Humboldt County is administered under Bureau of 
Land Management, but we also have, as you pointed out, Mr. 
Chairman, other Federal agencies. We have national conservation 
areas, wilderness areas, a national forest, and a Federal 
refuge. So, add it all together, and we are at about 90 
percent--88.8 percent, I believe.
    Mr. Gohmert. The proposed rule says ``cooperating agencies 
will participate in the various steps of the BLM's planning 
process as feasible and appropriate given the scope of their 
expertise and constraints of their resources.''
    I would like to ask each of you, what do you think that is 
going to mean to your county, your area, your association, if 
that change becomes effective?
    Mr. French, I will start with you.
    Mr. French. I believe that, unfortunately, most of the 
folks--this is a complex enough issue that most of the folks 
don't know what questions to ask. In many cases in Nevada, in 
many of the counties, 2.0 really passed over the top of their 
head. They did not realize what the implications of this could 
be to their counties. Many of the counties have to hire 
additional consulting staff in order to review this material; 
and then, the 90 days that the BLM gave them will pass before 
they have a chance to actually approve it.
    So, we have an issue relative to involvement. And, the 
county commissioners themselves mostly are not full-time 
commissioners. Most of them are lay people who do not have the 
background to actually have meaningful input to something as 
wide scope as a 2.0 policy change.
    Mr. Gohmert. Let me hear from Ms. Cowan. What do you think 
that change would mean?
    Ms. Cowan. I think it will shut down county participation, 
because the counties in New Mexico are lay people who make very 
little being county commissioners. They are responsible for 
managing entire counties. Often when these rulemakings come up 
and we contact these folks to see if they even had notice, a 
secretary will say, ``You know, I did see something like that, 
but it wasn't important, and I threw it away.'' So, I think it 
will just cut out county participation largely.
    Mr. Gohmert. Mr. Fisher?
    Mr. Fisher. Mr. Chairman, speaking from the perspective of 
hunters and anglers, I think that one of the roles of 
organizations, like Trout Unlimited, is to help decipher some 
of that information.
    Mr. Gohmert. Well, you will need to be doing a lot more.
    Mr. Obermueller.
    Mr. Obermueller. Thank you, Mr. Chairman. I think that the 
BLM was trying to give some deference to counties about our 
limited constraints. I think that the words on the paper did 
not quite capture what they were after. To Mrs. Dingell's 
point, I think that there is room here for the BLM to 
acknowledge our limitations and yet work with us to determine 
what our scope is jointly.
    Mr. Gohmert. Thank you. It definitely gives them more 
authority to cut you out.
    My time has expired. I recognize the Ranking Member for 5 
minutes. Mrs. Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman. I would like to 
agree with the Chairman that I think there may be more interest 
in this subject than you realize. I am probably the only Member 
on either side that gets grilled on this subject by her spouse 
on a regular basis.
    But, Mr. Fisher, I would like to ask you some questions, 
because I want to pursue this public involvement issue. I am 
trying to understand the assertion that more opportunities for 
public input are not necessary simply because elected officials 
are at the table. I agree that elected officials have a duty to 
be a voice for the public, but aren't there times when it is 
important for the public to be able to speak in their own voice 
as well?
    Mr. Fisher. Representative Dingell, I would agree with 
that. I think that the counties do have a very important role 
to play. I think the hunters and anglers are, oftentimes, the 
folks that are out in the field. We know these lands better 
than a lot of folks and a lot of public land users, so I think 
that our voice is very important and needs to be meaningfully 
heard at the table.
    Mrs. Dingell. I think it is true that elected officials 
have unique knowledge about the local community. It is critical 
to include them in the resource planning, and I really respect 
their role; but I suspect that it is also true of their 
constituents. Do you and other hunters, anglers, and sportsmen, 
bring a unique perspective to the process? And what would be 
the disadvantage of not including the perspective of groups 
like this in your process?
    Mr. Fisher. I think that we absolutely do bring a unique 
perspective. Again, throughout the year out there, we see the 
conditions on the ground. I think that one of the disadvantages 
to not having that meaningful engagement is by not having that 
buy-in from all stakeholders in these plans. I think that it is 
very important for these plans to work to be a partnership, and 
that includes everybody.
    Mrs. Dingell. By the way, I am married to someone who 
really thinks that, as you could probably guess. You all don't 
know him, some of them here do. He is more conservative on some 
of these issues than anybody at this dais.
    Some local and state officials seem concerned that adding 
opportunities for public involvement in the resource planning 
process makes their involvement less important. What are your 
thoughts on this? Will local and state officials still have a 
substantial say in the resource planning process?
    Mr. Fisher. Representative Dingell, I believe so. In my 
review of the proposed rule, there remains to be that 
cooperating agency status. I kind of look at it as a three-
legged stool. You have the local governments, the public land 
stakeholders, and the agency. If one of those important 
stakeholder groups really is not at the table, the whole thing 
falls apart; so I think it really takes all three groups to 
make this thing work.
    Mrs. Dingell. Everybody is important to the process, and 
not trying to exclude local, which I agree.
    I have just received a letter from the Park County Board of 
Commissioners expressing support for proposed improvements to 
public participation. You mentioned Park County in your 
testimony, Mr. Fisher. Can you explain what is happening there 
as it pertains to planning?
    Mr. Fisher. Yes, Representative Dingell. Currently, in Park 
County, the Eastern Colorado Resource Management Plan is taking 
a look at--it is called a master leasing plan which is going to 
determine where and how oil and gas leasing and then future 
development will occur. That process has been one of these 
really stakeholder collaboratives between hunters and anglers, 
communities, Denver Water, and the county commission, as you 
mentioned.
    I think that it really incorporates a lot of the kind of 
core values that BLM is trying to do with Planning 2.0, which 
is to bring people together early in the process, develop 
collaborative solutions, and then implement them through their 
resource management plan revision. So, I am very pleased to 
hear that Park County has taken that position.
    Mrs. Dingell. I am going to try to get one more in fast on 
landscape-scale planning.
    We know that resources like wildlife, rivers, and people do 
not politely coincide with state and field office boundaries, 
but they migrate and move across boundaries. It seems as though 
managing resources according to these boundaries creates 
unnecessary fragmentation and inefficiencies in the planning 
process.
    In your testimony, you gave the example of the Yellowstone 
River, which had different protections depending on the county 
you were standing in. Are there other disadvantages to managing 
resources at the field office level or other examples you can 
share in 2 seconds.
    Mr. Fisher. Two seconds. Yes, it comes down to consistency, 
and that is not just for fish and wildlife management, but I 
think it is important for all uses--oil and gas development, 
timber. Everybody needs to know consistently across field 
office boundaries what constraints they will be operating 
under.
    Mrs. Dingell. Thank you, Mr. Fisher.
    Mr. Gohmert. Thank you. At this time, the Chair will 
recognize the gentleman from Idaho, Mr. Labrador, for 5 
minutes.
    Mr. Labrador. Thank you, Mr. Chairman. The fact sheet for 
this proposed rule lists economic change alongside social and 
environmental as key items requiring an improved response from 
BLM. But in the actual rule, economic is completely eliminated, 
leaving only social and environmental change. Considering the 
reduced opportunity for substantive state and local government 
involvement in this proposed process, I am concerned about 
BLM's ability to monitor and respond to adverse impacts to 
rural economies resulting from these decisions.
    Commissioner French, your county is heavily dependent on 
economic activities on public lands. Does this proposed rule 
give adequate consideration for the economic impacts on 
counties?
    Mr. French. After reviewing 2.0, I believe that the 
consideration for economics and the impacts to county 
governments have not been adequately weighed in the sense that 
the planning that occurs, including master plans and such, are 
dynamic. They are a moving target.
    If we are subjected to cooperative agency status on one 
occasion and are allowed to input into an RMP revision down the 
road as transportation plans, development plans, water 
management plans, and various plans evolve in our counties, the 
BLM is not involved at that stage. I believe under 2.0 that 
needs to be something that is modified and shored up at this 
point.
    Mr. Labrador. OK. Thank you. Mr. Obermueller, same 
question. Do county commissioners in Wyoming believe that this 
rule gives adequate consideration to the economic impacts on 
counties?
    Mr. Obermueller. Thank you, Representative Labrador, and it 
is a very important question that I am going to answer in a 
second, but I also wanted to clarify for Representative Dingell 
that as it relates to county commissioners in Wyoming and the 
state and local officials that I deal with, we are not seeking 
an exclusion of any group.
    In fact, the BLM Planning 2.0 rule provides a new system, a 
plan assessment phase, where groups like Trout Unlimited, Stock 
Growers, and others can be involved. We support that. It says 
so in our written testimony, that we want that involvement. 
Early-and-often stakeholder involvement is exactly right, as 
Mr. Fisher pointed out. The issue is, the law provides local 
governments with an added authoritative weight, and that is 
what we see diminished.
    So, Representative Labrador, to your point, this is what I 
alluded to about a diffusion of local interests in a sense that 
the rule changes wording and language away from local economies 
and local dependence on Federal lands for the very survival of 
the county toward broader, nebulous goals that we are concerned 
that BLM does not have the expertise or the ability to even 
assess. We have worked very hard with the BLM at improving 
their analysis of socio-economic data in the counties precisely 
for that reason, and moving away from that troubles us.
    Mr. Labrador. Commissioner French, I have been contacted by 
several stakeholders in Idaho who have raised concerns about 
the process that the BLM has used on this proposed rule. 
Specifically, they are concerned about the lack of public 
outreach, the very limited number of public meetings that have 
been held, and the timing of the meetings that have been held. 
For example, the hearings have been held on Wednesday 
afternoons when most individuals are at work. How would you 
describe BLM's outreach efforts in Nevada?
    Mr. French. Very similar to what has been experienced in 
Idaho. We have had a revolving door in the Winnemucca District, 
in Humboldt County, of personnel, and there really has not been 
a very consistent voice in terms of being able to discuss even 
from a county perspective. But from a public comment period 
perspective, there was one opportunity that I am aware of that 
occurred on a Thursday afternoon, and it was at a 
telecommunications type meeting.
    Mr. Labrador. OK. Mr. Fisher, real quick, the BLM is 
seeking to accept citizen science--that is what they are 
calling it--in planning without identifying how that relates to 
the best available science.
    In the Denver public meeting, BLM's representatives 
repeatedly stated that expanded incorporation of citizen 
science in planning would be a benefit of the new planning 
process. Do you know what citizen science is? And if you do, 
who gets to decide whose citizen science is going to be 
accepted?
    Mr. Fisher. Representative Labrador, I am familiar with 
citizen science. Trout Unlimited, as a resource organization, 
tries to incorporate and facilitate some citizen science 
through our membership. There have to be quality control 
measures in place, a quality assurance plan; and I think that, 
ultimately, it does come down to the resource professionals 
with the BLM to determine if citizen science is science that is 
the best available and whether it should be interpreted.
    Mr. Labrador. So, resource professionals are going to 
determine what science is accepted, instead of being objective, 
so I am very concerned about that.
    Thank you. I yield back.
    Mr. Gohmert. I thank the gentleman. By the way, the Ranking 
Member commented about her husband. I am not surprised at all 
by the gentlelady's comments. I have great admiration and 
respect for your husband. He is a man of honor and integrity, 
and represented himself and his constituents well.
    At this time, the gentleman from Colorado, Mr. Polis, is 
recognized for 5 minutes.
    Mr. Polis. Thank you. I come from a western state that has 
a wide variety of public lands; and after speaking with 
constituents across my district, revision of this plan is long 
overdue. There are few plans, or rules, that can stay relevant 
for four decades, two generations of my constituents; and BLM's 
planning truly is outdated.
    Local control and constituent input are really my top 
priorities in the inherent values of those of us who live in 
and around our public lands. It makes sense that many counties 
in Colorado worked with local BLM offices on this type of plan, 
and that was even before the BLM completed this rule. As part 
of revising the Eastern Colorado Resource Management Plan, the 
Royal Gorge Field Office in Colorado has already embraced and 
implemented some of the ideas from Planning 2.0, including 
recent envisioning sessions that involve a wide range of 
stakeholders. In addition, responding to a proposal from Park 
County, the BLM has agreed to evaluate a master leasing plan. I 
have a letter from the Park County Board of Commissioners that 
I would like to submit for the record.
    Mr. Gohmert. Without objection, so ordered.

    [The information follows:]

        Park County--Board of County Commissioners,
                                         Fairplay, Colorado

                                                       May 12, 2016

Neil Kornze, Director,
Bureau of Land Management,
1849 C Street N.W.,
Washington, DC 20240.

Re: The Bureau of Land Management's Proposed Resource Management 
        Planning Rules, 81 Fed. Reg. 8674 (February 25, 2016)

    Dear Director Kornze:

    The undersigned representatives of local government are writing to 
share their support for provisions of the Bureau of Land Management's 
(BLM's) Proposed Resource Management Planning Rules, 81 Fed. Reg. 8674 
(Feb. 25, 2016) (the Proposed Rules). In particular, we support the 
provisions of the Proposed Rules that provide additional opportunities 
for public involvement earlier in the planning process, including the 
chance to review preliminary resource management alternatives and 
preliminary rationales for those alternatives.
    Each of undersigned representatives come from local jurisdictions 
whose land bases include substantial amounts of public lands managed by 
BLM. The management of these public lands is vitally important to the 
citizens we represent. Our citizens and local economies depend on these 
lands for sustainable multiple uses, from outdoor recreation to 
livestock grazing to mineral exploration and development.
    The current BLM planning methodology lacks adequate opportunities 
for public involvement, particularly early in the process. It also 
lacks transparency. It often results in a range of alternatives that 
fails to address the concerns of all stakeholders. The proposed changes 
would provide the public with an opportunity to raise concerns and 
review potential management alternatives before these alternatives 
become solidified in a draft Resource Management Plan (RMP). This early 
public involvement will hopefully help resolve conflicts and produce 
RMPs that better reflect the needs of our citizens as well as others 
who use the public lands and have a stake in their future.
    In addition, we note that the Proposed Rules also expand 
opportunities for states and local governments to have meaningful 
involvement in the development of BLM's land use decisions. The 
Proposed Rules continue to provide for coordination with state and 
local representatives in order to ensure, to the extent available under 
federal law, that RMPs are consistent with state and local land use 
plans, as provided in the Federal Land Policy and Management Act of 
1976.

            Sincerely,

                                              Mike Brazell,
                                                          Chairman.

                                 ______
                                 

    Mr. Polis. The letter says, in part, that they share their 
support for provisions of the Bureau of Land Management's 
proposed resource management planning rules in large part 
because of the people that live in and around the public lands, 
and that management of these public lands is vitally important 
to the citizens we represent from Park County, Colorado.
    Mr. Fisher, planning for public lands can be complex and 
involve lengthy documents that are sometimes difficult to 
understand. The BLM is now proposing a more collaborative, 
transparent, multi-stakeholder process to help navigate 
planning. How, in your experience, will more up-front 
engagement with communities improve the planning process?
    Mr. Fisher. Representative Polis, I think that that early-
and-often engagement that we have talked about with those local 
communities is going to create, like I mentioned, more durable 
plans. People are going to have buy-in; they are going to have 
ownership over those plans. I think through the assessment 
phase that Mr. Obermueller mentioned, it is going to help 
identify those local issues. My hope is that that will form the 
foundation of how these plans are developed and what issues are 
meaningfully addressed.
    Mr. Polis. In your testimony, you referenced the evaluation 
of a master leasing plan. How does that relate to the Planning 
2.0 rule process, and how can we have local government 
representatives and residents engaged in that process?
    Mr. Fisher. Representative Polis, the master leasing plans 
are not explicitly mentioned in the proposed planning rule. But 
I believe that that master leasing plan process really 
emphasizes building solutions from the ground up, taking a look 
at a landscape, and deciding collaboratively what makes sense 
for management of this landscape. That is really at the core of 
master leasing plans, and I think that you see that also in 
this proposed rule.
    Mr. Polis. Can you speak to not only the importance of 
stakeholder involvement, which you alluded to in getting buy-in 
to the plan, but how important is what my constituents and 
residents of nearby communities think in determining and 
providing input into actual plans of usage, and how will Rule 
2.0 enhance the way that our local input counts in these 
decisions?
    Mr. Fisher. Representative Polis, you know that early 
assessment phase is one. The other opportunity is through a new 
public comment engagement period between the initial scoping 
and before the draft alternatives are put out for review. There 
will be an intermediary step with preliminary alternatives that 
will allow the public to consider what the BLM is thinking, to 
look at the rationale for that, and to provide input to make 
sure that they are on the right track.
    Mr. Polis. Finally, we know that wildlife, rivers, and 
people do not stop at arbitrary state boundaries or field 
office boundaries. Wildlife migrates and rivers move across 
political boundaries; so I applaud the BLM on thinking about 
common-sense ways to plan for use and conservation on our 
public lands rather than rely on political boundaries. How will 
these kinds of changes affect wildlife and the sportsman 
community around breaking down political boundaries?
    Mr. Fisher. Representative Polis, I believe that that kind 
of big picture thinking will create better habitat; and better 
habitat is better for wildlife, and healthier, more robust fish 
and wildlife populations mean better hunting and fishing.
    Mr. Polis. Thank you. I yield back.
    Mr. Gohmert. The gentleman yields back. At this time, the 
Chair recognizes the gentleman from Arkansas, Mr. Westerman, 
for 5 minutes.
    Mr. Westerman. Thank you, Mr. Chairman. Mr. Obermueller, 
the BLM's proposed planning rule is lifted almost entirely from 
the Forest Service's planning rules adopted in 2012. It is 
almost uncanny how similar they are. Whole concepts and ideas 
are taken straight from it, including this new planning 
assessment phase at the very beginning where the Agency asks 
all stakeholders for information and ideas on the scope of the 
management plan.
    My district contains well over 2 million acres of National 
Forest Service land, but no BLM land; so I want to know, how 
has the Forest Service implemented the 2012 planning rule, and 
do you believe it should serve as a model for the BLM or the 
Department of the Interior as a whole?
    Mr. Obermueller. Congressman Westerman, thank you for that 
question. It is very insightful about the Forest Service 
planning rule that has been in effect since 2012, and you are 
exactly right. The BLM, in many ways, did not reinvent the 
wheel. They looked to the Forest Service planning rule in a lot 
of ways, including the planning assessment which you have heard 
a lot about.
    I want to make clear that we support the planning 
assessment phase, and we support any of the groups being able 
to provide data during that time. Our issue is that when local 
governments, by their own action, create data via impact 
memos--in one case in Campbell County, Wyoming, they convened a 
scientific symposium on raptors after the process had already 
begun. Under the proposed rule, the local government data 
generated at that point would not necessarily be admissible 
anymore, into the planning process.
    The Forest Service has its planning assessment phase as 
well. They have used it, we have supported it, and we 
appreciate the way the Forest Service has tried to engage local 
governments and be nimble. Here is the challenge--and I would 
be interested to hear how your constituents feel about it in 
your forests--the challenge is the Forest Service under their 
Act, NFMA, does not have the same statutory requirements that 
the BLM does. The BLM, under FLPMA, has the statutory 
requirement of coordination with local governments. The Forest 
Service does it out of the goodness of their hearts.
    The trouble with the Forest Service in that case is that 
they do not have the anchor of Federal law from Congress to 
come back to about the direction they are supposed to take, so 
sometimes they flounder about how to engage any stakeholder, 
including local government.
    So, while we appreciate the Forest Service's nimbleness, we 
keep coming back to what is directed to the BLM under FLPMA.
    Mr. Westerman. Thank you for that. Mr. Fisher, you talked 
in the first part of your testimony about being an outdoorsman, 
hunting and fishing. It sounds very similar to where I grew up 
and what I still try to do. My son and I actually caught some 
fish Saturday and cooked them up for supper, and there is 
nothing better than fresh fish for dinner. It is making me 
ready to get back to Arkansas.
    I am not sure of all of your background, but I know you 
work for Trout Unlimited, so you are very concerned about the 
protection of streams and water quality.
    Can you describe what happens to a stream if you were to 
clearcut right down to the stream edge, remove the shade, and 
create soil erosion that would go into the stream? What does 
that do to trout fisheries?
    Mr. Fisher. Representative Westerman, increased water 
temperature and turbidity make it more difficult for trout, for 
instance, to have successful spawning. At the end of the day, 
the fishing gets worse.
    Mr. Westerman. So, that is something we definitely do not 
want to see--the water warm up, more soil going into the stream 
and damaging the fishery. That also does not do good for the 
water. If we look at forestry management, what natural 
occurrence does a clearcut simulate? It is a forest fire, a 
stand replacement forest fire; so if you get one of these huge 
forest fires that burn right down to the stream edge, it is 
essentially like you went in and clearcut it. Now you have 
exposed the water to higher temperatures. You have not only 
soil runoff but ash runoff into the stream, which is not good 
at all for the fishery.
    One thing I am concerned about in the rule--and I think it 
is a good thing--it says ensure that the public lands be 
managed in a manner that will protect the quality of 
scientific, scenic, historical, ecological, environmental, air 
and atmospheric, water resources, and archeological values, and 
it goes on and on. I am almost out of time, but it just says to 
recognize the need for domestic sources of minerals, food, 
timber, and fiber from the public lands.
    So, if we are only recognizing the need, and we are not 
actively managing the forest, I am worried we are going to 
destroy some of these other things that we say we are there to 
ensure. And if I wasn't out of time, I would go on, Mr. Chair.
    Mr. Gohmert. Thank you. I thank the gentleman. At this 
time, the Chair recognizes Mrs. Radewagen for 5 minutes.
    Mrs. Radewagen. Thank you, Mr. Chairman. Mr. French, you 
are a former land manager and now a county commissioner, so you 
have been on both sides of coordination and of the Federal Land 
Policy and Management Act. Based on your impressions, does the 
proposed Planning 2.0 rule, as it is currently presented, serve 
to strengthen the hand of local governments or of the Federal 
agencies; and if so, how?
    Mr. French. In my view, Congresswoman, I believe that the 
plan, as it is proposed at this time, will weaken the ability 
of the counties to not only weigh in relative to the 
development of RMPs; but as the circumstances change within the 
landscape of the resources in this county, the ability to pivot 
and actually change management based on real life conditions on 
the ground will be limited.
    I believe it also is going to limit our ability as county 
commissioners to weigh in with our constituents in the form of 
public hearings as this moves forward, because it limits our 
ability to be involved at the ground level, especially with 
regard to changes that will occur within the context of the 
plan.
    Mrs. Radewagen. How could Planning 2.0 be improved to 
better allow for greater local involvement in BLM planning?
    Mr. French. Thank you for that question. One of the major 
things that came to my mind, as I went through this plan the 
first time, is that if it isn't broke, don't fix it.
    I agree with some of the comments that have been made here 
today that the plan that has been recognized under FLPMA for 
years could use some updating with regard to the public's 
involvement. But that should not be at the expense of the 
stakeholder relationships with the public land managers, 
because those stakeholders, including the state and local 
governments, are the subject matter experts and the people that 
are on the ground on a day-to-day basis who will be able to 
recognize and make meaningful suggestions and contributions to 
plans being developed, as well as plans being modified in the 
future.
    Mrs. Radewagen. Mr. Obermueller, what can BLM do to improve 
this rule from your perspective?
    Mr. Obermueller. Thank you for the question. I probably 
can't answer that in 2 minutes. Our official comments will be 
rather lengthy, but I think there are a couple of things. Maybe 
most importantly, the Agency could clarify their intentions 
with regard to the opportunities and ability for local 
governments to be involved as cooperating agencies moving 
forward.
    The cooperating agency process that I alluded to in my 
testimony under CEQ regs is not perfect, but it is the process 
that we have; and in Wyoming, county commissioners in Wyoming, 
across the state, are actively involved in that process. It is 
not easy. It is a tough slog to wade through all of these rules 
and be involved in that way, and it is difficult to convince 
elected officials, as Commissioner French pointed out, who are 
often part-time and do not have staff or resources, to stay 
engaged if they do not see a result at the end, or do not feel 
that the agency is giving them the time and attention they 
deserve, rather than simply checking the box. Clarifying our 
role as a cooperating agency would be primary.
    Mrs. Radewagen. Anything you would like to add, Ms. Cowan?
    Ms. Cowan. I think that it is interesting that we are 
talking about a planning rule that needs to include the public 
in the planning, but the planning rule did not include the 
public in the planning.
    So, stepping back and taking a look at this and working 
with the interested people, we have identified several areas of 
common ground here this afternoon. But this just seems to be a 
heavy-handed attempt to take local control, which is working 
very well in New Mexico at this point in time, and bring it to 
Washington, DC. And, when you take something that far away from 
the impacts, we have never had a good outcome.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. The gentlelady yields back. At this time, the 
Chair yields to Mr. Clay for 5 minutes.
    Mr. Clay. Thank you, Mr. Chair. Let me start with Mr. 
Fisher. Do you think the landscape-scale approach will improve 
management of public lands overall?
    Mr. Fisher. Representative Clay, I do believe that it will. 
I would like to address that landscape-scale planning a little 
bit. I think that what the BLM is really trying to get at, at 
least I hope so, for hunters and anglers, it is more of a 
scalable, so we are not just necessarily going and planning for 
a large landscape, but we are taking a look at conditions of 
the ground and planning for the issues that need to be 
addressed; and that could scale up, or it could scale down. But 
I think that having that flexibility will help with the 
management of our public lands.
    Mr. Clay. The other witnesses have expressed concern that 
the landscape approach encourages a one-size-fits-all approach 
to resource planning by moving planning to the regional level. 
It seems as though planning at the landscape level would make 
the plans more tailored to the unique needs of the individual 
landscape. What are your thoughts about that?
    Mr. Fisher. I think that how that planning area is defined 
really needs to be informed with that assessment at that 
assessment phase; and that when it does, whether it is a 
regional plan or if it is scaled down to a smaller plan, that 
it is really going to help address the issues on the ground and 
find ways to do so from the ground up through collaborative 
processes.
    Mr. Clay. Does landscape planning make plans more generic 
or more tailored to the resource needs?
    Mr. Fisher. Representative Clay, I think when done well, 
they would be more tailored to the resource needs and the needs 
of America's public land users.
    Mr. Clay. All right. As I understand it, one problem with 
the current planning process is that alternatives are evaluated 
without public input. So, when the public is finally involved, 
which may be months or years down the road, someone can sue 
because, for example, the selection of the alternatives was not 
complete. What is the effect on lawsuits that this rule is 
likely to have?
    Mr. Fisher. Representative Clay, I believe that that early-
and-often collaboration, which will help achieve buy-in and 
create ownership from the public over these plans, would result 
in a reduction in litigation. I think when people view these 
plans as their own, they are less likely to litigate them.
    Mr. Clay. That sounds like something my friends here would 
be in favor of, less litigation by trial attorneys. I am sure 
the Chairman would pretty much agree with that. Isn't that 
right, Mr. Chair?
    Mr. Gohmert. In the appropriate circumstances.
    Mr. Clay. In the appropriate circumstances. Let me yield 
back the balance of my time. Thank you for your response.
    Mr. Gohmert. Thank you, Mr. Clay. At this time, the Chair 
recognizes Mr. Hice for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. Mr. Obermueller, let me 
begin with you. Under the current regulations, if you asked to 
be a cooperating agency and the authorized officer denies the 
request, does it go automatically to the State Director for 
review at that point?
    Mr. Obermueller. Representative, actually I am not quite 
sure of the mechanics at that point. They do have the 
authority, with respect to the cooperating agency regulations, 
of who to accept or not.
    In Wyoming, we are proactive in making sure that not only 
do we point out that they are instantly required to coordinate, 
but we work hard at making them want us to be involved; so we 
have not had a denial like that to work on.
    Mr. Hice. How does the new proposed rule work?
    Mr. Obermueller. With respect to cooperating agencies, 
Representative?
    Mr. Hice. Right.
    Mr. Obermueller. As I mentioned in my testimony, it 
actually closely mirrors the CEQ guidelines. Technically, under 
the CEQ guidelines, the agency is supposed to reach out to 
local governments and invite them to the table. We have learned 
the hard way, in Wyoming and in the counties across the West, 
that we cannot rely on the agency to follow that, to actually 
do the invitation. So, we invite ourselves, quite frankly; and 
we are proactive about that.
    Mr. Hice. All right. From this perspective, if for some 
reason you are denied, BLM says you are not allowed to 
participate. Is there any way to have that decision reviewed?
    Mr. Obermueller. Representative, not that I am aware of.
    Mr. Hice. So, that is the final say? If they say you are 
not allowed to participate, that is the end of discussion?
    Mr. Obermueller. I believe that is correct, Representative.
    Mr. Hice. Mr. French, would you like to tap in on that?
    Mr. French. Under current FLPMA law, if you are denied 
cooperating agency status, you can appeal that to the State 
Director's office. Under 2.0, it is not clear if it would 
stop----
    Mr. Hice. Is that a change that you think serves counties 
well?
    Mr. French. To be able to appeal that to the State 
Director?
    Mr. Hice. You said they are not able to under the new rule. 
Is that good for counties or bad?
    Mr. French. Not at all.
    Mr. Hice. Right. Why not? Expound on that.
    Mr. French. I believe that, especially, if the decision to 
not admit an entity under cooperating agency status is made by 
a regulatory authority that might be in Washington, DC, or in a 
regional office at best, they may not understand the full 
dynamics of why that group, including a county, would want to 
be involved in that; and the county or a group that has 
petitioned for that should have the opportunity to make that 
case in front of a state director.
    Mr. Hice. OK. So, should there be some sort of back drop, 
do you think, to at least provide good reason for excluding 
counties if they have been denied the right to participate?
    Mr. French. I am not sure I understand what the rationale 
could be for that. We talked a few moments ago about limiting 
litigation. I think the probability for increasing litigation 
is probably a very real problem under 2.0, if the appeals 
process is short-circuited. From a transparency standpoint, the 
more you can have your stakeholders make their case publicly 
for their involvement in a process, the better.
    Mr. Hice. OK. Ms. Cowan, you look like you are wanting to 
pipe in?
    Ms. Cowan. Yes, if I could weigh in on that a little bit. 
One of the things that is most startling as you go through 2.0, 
is that throughout the document, they removed the word 
``shall'' in their regulations and replaced it with ``will.'' 
When you talk about words mattering as legislators, the 
difference between ``shall'' and ``will'' are vastly different; 
and that is a huge concern.
    Mr. Hice. Explain what that means practically for local 
governments?
    Ms. Cowan. To me, it means that BLM can do whatever they 
want. They will do something, but they are not held to that 
standard in any way. If they decide to change something, 
``shall'' does not hold their feet to the fire.
    Mr. Hice. OK. So they can do what they want. Would you 
consider this an over-reach?
    Ms. Cowan. Absolutely. Without a doubt. We talked about 
litigation, and we talked some about the landscape. I guess it 
would be my contention that landscape planning is going on 
already, because we have organizations like Mr. Obermueller's 
where county commissions get together. They work on these 
things together; and things do not just stop at one county line 
and move on to the next. In this over-reach, you are taking 
local government out. So, the economics of what happens in each 
county becomes a factor that is not considered all. There are 
some things that may need to be changed in this, but there are 
a lot of things that work; and we need to work through and save 
those things.
    Mr. Hice. Thank you. I yield back, Mr. Chairman.
    Mr. Gohmert. Thank you. At this time, the Chair recognizes 
the gentlelady from Wyoming, Mrs. Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman. To follow on the last 
line of questioning about centralization of decisionmaking--Mr. 
Obermueller, if field managers and state directors are removed 
from the rule as the specific go-to people with direct 
responsibility for drafting and approving resource management 
plans, who then becomes responsible?
    Mr. Obermueller. Thank you, Representative Lummis. This is 
a very good question. The proposed rule, in an effort to do 
these landscape-scale analyses, which I will get to in a 
moment, does remove the State Director and the field manager as 
the officials specifically designated to draft or approve these 
plans, replacing it with a deciding official, an approving 
official, or something like that.
    The county commissioners in Wyoming do not want to 
necessarily be focused on who is doing this. We are much more 
interested in how. But this is a troubling trend in the sense 
that Mr. Fisher mentioned--if it is done right, then landscape 
planning will work. We are concerned it cannot be done right, 
if in a particular area, a person is air dropped in who does 
not have a cultural affinity, or a recognition or rapport, with 
the local stakeholders on the ground in any given county.
    So, I am not troubled by the notion of landscape-scale 
planning. You know this well, Representative Lummis, that in 
Wyoming we already do that. We plan large scale for sage 
grouse, for wildlife migration, for energy development; we plan 
large scale all the time. But, I am very troubled by this 
notion of diminishing the role of counties, that somehow county 
boundaries do not matter or somehow hinder landscape-scale 
planning. What are county commissioners for if not to represent 
the people in the county, every one of them, single issue 
interest or not?
    Mrs. Lummis. Are there examples of where Federal agencies 
have minimized the role of local governments already?
    Mr. Obermueller. Yes, there certainly are. I hate to focus 
on the negative, but one of the things that particularly 
troubles county commissioners, elected officials, is some 
Federal agency's tendency to want to go out and do what they 
call ``situational assessments'' or ``stakeholder analysis'' 
and that sort of thing.
    Again, it is the people of the county who elected the 
commissioners. If you want to do a situational assessment, ask 
the elected county officials, and you will get a situational 
assessment that is a broad view. They are accountable to the 
public. If the public thinks they are not giving the right 
assessment, they will be gone, and a new group will be back.
    Those are some examples, and that is why we are concerned 
in the Planning 2.0 rule, particularly with respect to when and 
how county-generated data can be inserted into the planning 
process, that that will marginalize local governments.
    Mrs. Lummis. I have been a little concerned about how 
multiple use is being interpreted. It seems like it has been 
morphing over the years to prioritize certain multiple uses and 
deprioritize others. What steps could Congress take when we are 
looking at FLPMA and the Wilderness Act, to ensure that 
multiple use is adhered to on Federal lands? And I would like 
to ask that question of each of our panelists, so please be as 
brief as you can with a broad question. Could we start with Mr. 
Obermueller?
    Mr. Obermueller. Yes. Thanks for that question. It is a 
very big question, and I think that I appreciated watching the 
testimony on the local Act introduced, or discussion draft, 
about ways to try to improve local coordination.
    One of the things that concerns us is that we have to be 
very careful with that, about making sure that the agencies are 
encouraged and incentivized to work with local governments as 
opposed to giving them just a checklist that, as soon as they 
check it, they are out the door.
    It would take a long time to get into the specifics of how 
to make that work; but, again, it goes back to their 
responsibility and our responsibility to not only know that you 
need to follow the law, but you have to be willing to do the 
work to be engaged in a meaningful way.
    Mrs. Lummis. Mr. Fisher, multiple use. How can we protect 
true multiple use?
    Mr. Fisher. Representative Lummis, that is a wonderful 
question. I think that Congress could really help to ensure 
that early-and-often public engagement, through collaborative 
processes to find that balance between resource development and 
conservation, and to make sure that all stakeholders' interests 
are represented. Then, when those collaborative processes 
result in a solution, to help implement that if a legislative 
mechanism is necessary.
    Mrs. Lummis. My time is expired, Mr. Chairman. Could you 
indulge the other two witnesses the opportunity to answer that 
question?
    Mr. Hice [presiding]. Yes.
    Mrs. Lummis. Thank you so much. Ms. Cowan, same question. 
How can we ensure true multiple use?
    Ms. Cowan. Mr. Chairman and Representative Lummis, I think 
that Mr. French and I were perhaps raised in different 
generations than the gentleman to my right. I was raised with 
the idea that you had to be held accountable, and I don't often 
find that Congress is holding the agencies accountable to 
sticking to their missions.
    When you look at the resources, the financial and manpower 
resources, that went into this document, where did Congress 
authorize this kind of a process that sucks public 
participation and government participation out? So, if there 
are ways that Congress can hold agencies more accountable, via 
their budgets or other ways, you have to do your job first and 
then you look beyond at what you have the time and resources to 
do.
    Mrs. Lummis. Mr. French, same question.
    Mr. French. I will try to be brief, but I am going to date 
myself. I was an active wildlife biologist when FLPMA was 
actually adopted, and I recall the working relationships the 
state wildlife agency had prior. I worked with it for 34 years 
after, and I can tell you that that was one of the things that 
Congress had in mind when FLPMA was passed--we called it the 
sweet spot, that area that was not overly regulatory and did 
not provide for overutilization of public resources.
    But to answer your question, the interpretations of the law 
need to be tightened up. The devil is in the details, in terms 
of how one line manager interprets FLPMA and his involvement in 
creating a range of alternatives that involve an accurate 
depiction of what is needed for public land management in a 
particular location, because it is different in every location.
    So, I would say if we could tighten up the rule and tighten 
up the language which would make it consistent from one 
district to another, that would go a long way.
    Mrs. Lummis. I thank the witnesses, and I thank the 
Chairman also for your indulgence. I yield back.
    Mr. Hice. You are very welcome. I would like to thank each 
of the witnesses for your testimony and each of the Members for 
the questions today.
    I would also like to ask unanimous consent to enter into 
the record two letters regarding the Planning 2.0 rule. The 
first consists of comments from the American Motorcyclists 
Association, and the second a letter to BLM from the Utah 
Public Lands Coordination Office. Hearing no objections, so 
ordered.
    [The information follows:]

                 American Motorcyclist Association,
                                             Washington, DC

                                                       May 11, 2016

Hon. Louie Gohmert, Chairman,
Hon. Debbie Dingell, Ranking Member,
House Subcommittee on Oversight and Investigations,
Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Gohmert and Ranking Member Dingell:

    The American Motorcyclist Association applauds the Subcommittee on 
Oversight and Investigations for holding the hearing titled, ``Local 
and State Perspectives on BLM's Draft Planning 2.0 Rule.'' The 
usurpation of local, state, stakeholders and Congress that underlies 
the U.S. Bureau of Land Management's proposed planning rule is very 
troubling to us.
    Founded in 1924, the AMA is the premier advocate of the 
motorcycling community. We represent the interests of millions of on- 
and off-highway motorcyclists in the United States. Our mission is to 
promote the motorcycle lifestyle and protect the future of 
motorcycling.
    The AMA recognizes the benefit of periodic reviews to ensure 
processes are relevant to current conditions and appreciate the 
opportunities--to date--that were provided for public input.
    However, we are concerned that the landscape-level focus of the 
Planning 2.0 proposal minimizes input from local and state governments, 
public officials, and private citizens; fails to address economic 
impacts and administrative costs of the proposed changes; and results 
in comprehensive changes which can be easily reversed under new 
secretarial leadership.
    Inconveniently scheduled public input opportunities, despite 
assurances of increased public involvement, have been insufficient and 
speak directly to the AMA's long term concerns about the proposed 
planning approach. The processes that spawned the Rapid Ecological 
Assessment and Landscape Conservation Cooperatives that are central to 
the proposed foundation of landscape planning provide a troubling 
example. The proposal's assurances of greater input from other federal 
agencies does not address that concern.
    Without any mention of the economic impacts of the proposed changes 
on affected communities and other stakeholders, the AMA is justifiably 
concerned that no consideration was given to the topic. Similarly, 
direct costs of the proposed changes were left unaddressed and should 
be a primary topic in this era of constrained budgets.
    Finally, the significance of the proposed changes being based on a 
Presidential Directive and four Secretarial Orders--all of which 
circumvent the U.S. Congress, states and a wide range of national, 
regional and local stakeholders--cannot be overstated. It is ironic 
that President Obama's 2009 Open Government Directive is cited as the 
basis for the proposed rules that minimize public involvement. Further, 
Secretarial orders 3289 on climate change, 3285 on renewable energy, 
3330 on mitigation policies and 3336 on rangeland fire protection were 
created and used to justify the proposed rule, apparently without any 
public input.
    This process appears to be similar to the way the failed 
Washington, D.C.-led effort of the Wilds Lands (Sec. Order No. 3310) 
designation would essentially allow officials in the BLM to manage 
public land as if it had received a ``Wilderness'' land-use designation 
from Congress, but without requiring congressional approval or local 
and state input.
    In conclusion, while the AMA recognizes the need for periodic 
review of planning processes and acknowledges the limited opportunities 
that were provided for public input to date, we nevertheless believe 
the current process--which is based on presidential and secretarial 
proclamations and designed to favor input from other federal agencies 
over local and state stakeholders--has created an inherently flawed 
planning proposal.
    Again, thank you for holding this important hearing and supporting 
outdoor recreation and motorcyclists. The AMA looks forward to working 
with you on all motorcycle-related issues before Congress.

            Sincerely,

                                              Wayne Allard,
                              Vice President, Government Relations.

                                 ______
                                 

                          Office of the Governor,  
           Public Lands Policy Coordination Office,
                                       Salt Lake City, Utah

                                                       May 10, 2016

Neil Kornze, Director,
Bureau of Land Management,
1849 C Street N.W.,
Washington, DC 20240.

Re: Resource Management Planning, Proposed Rule ``Planning 2.0''; 81 
        Fed. Reg. 9674 (February 25, 2016)

    Dear Mr. Kornze:

    The Bureau of Land Management's (BLM) recently proposed planning 
rule,\1\ often referred to as ``BLM Planning 2.0,'' adds a new step to 
resource management planning called the ``planning assessment'' that 
would purportedly ``include new opportunities for public involvement.'' 
\2\ The State of Utah finds that the proposed planning assessment 
process fails to ``provide for meaningful public involvement of State 
and local government officials'' as required by the Federal Land Policy 
and Management Act (FLPMA).\3\ The State requests that the BLM amend 
the Proposed Rule to require BLM officials to formally coordinate the 
planning assessment with State and local governments, in accordance 
with FLPMA.
---------------------------------------------------------------------------
    \1\ 81 Fed. Reg. 9674 (February 26, 2016).
    \2\ 81 Fed. Reg. 9674, at 9705.
    \3\ The Federal Land Policy and Management Act of 1976, Title II, 
Sec. 202(a)(9). [43 U.S.C. 1712(c)(9)].
---------------------------------------------------------------------------
    Under FLPMA, the BLM must ``coordinate the land use inventory, 
planning, and management activities . . . with State and local 
governments'' as well as ``provide for meaningful public involvement of 
State and local government officials.'' \4\ These requirements apply to 
all steps of resource management planning, including the proposed 
planning assessment. As currently written, the Proposed Rule would 
place non-governmental organizations and the general public at the same 
level as State and local governments in the planning assessment 
process,\5\ violating FLPMA. If the BLM adds planning assessment to its 
planning process, it must specifically and formally coordinate each 
planning assessment with State and local governments. That coordination 
must be distinct from any public outreach in order for the State and 
local governments' involvement to be ``meaningful'' under FLPMA.\6\
---------------------------------------------------------------------------
    \4\ Id.
    \5\ 81 Fed. Reg. 9674, at 9729, 9730.
    \6\ 43 U.S.C. 1712(c)(9).
---------------------------------------------------------------------------
    Democratically elected government officials represent the majority 
view of their constituents. The views of State and local government 
elected officials should receive particular consideration in the 
planning assessment process. Under FLPMA, the BLM may not formally 
coordinate with non-governmental organizations since such groups are 
not elected bodies and do not represent the views of the majority. The 
public is empowered to influence resource management planning through 
their elected officials, and to vote out of office those government 
officials who fail to represent public views during coordination with 
the BLM. Thus, coordination must include private meetings between the 
BLM and State and local governments where officials from both sides can 
openly share expertise, assess the resource, environmental, ecological, 
social, and economic conditions of the relevant planning area, and 
formulate the objectives of the planning assessment. Such meetings 
should include a discussion of State and local land management plans 
and explore how the relevant BLM plan can complement the objectives of 
State and local management plans.
    The planning assessment process should facilitate efficient 
resource management planning without circumventing the role of State 
and local governments in coordination. The State proposes the following 
amendments to Section 1610.4 \7\ of the Proposed Rule (suggested 
additions in italics, suggested deletions in underlines).
---------------------------------------------------------------------------
    \7\ 81 Fed. Reg. 9674, at 9729, 9730.

---------------------------------------------------------------------------
        Sec. 1610.4 Planning assessment.

        Before initiating the preparation of a resource management plan 
        the BLM will, consistent with the nature, scope, scale, and 
        timing of the planning effort, complete a planning assessment.

        (a) Information gathering. The responsible official will:

        (1) Arrange for relevant resource, environmental, ecological, 
        social, economic, and institutional data and information to be 
        gathered, or assembled if already available, including the 
        identification of potential ACECs (see Sec. 1610.8-2). 
        Inventory data and information will be gathered in a manner 
        that incorporates data from State and local governments, aids 
        the planning process, and avoids unnecessary data-gathering;

        (2) Identify relevant national, regional, State, or local 
        policies, guidance, strategies or plans for consideration in 
        the planning assessment. These may include, but are not limited 
        to, executive or Secretarial orders, Departmental or BLM 
        policy, Director or deciding official guidance, mitigation 
        strategies, interagency initiatives, and State, ormulti-state, 
        and local resource plans and policies;

        (3) Identify State and local plans with which BLM plans must be 
        consistent to the maximum extent consistent with FLPMA and 
        Federal law, in accordance with 43 U.S.C. 1712(c)(9);

        (3)(4) Provide opportunities for other Federal agencies, State 
        and local governments, Indian tribes, and the public to provide 
        existing data and information or suggest other policies, 
        guidance, strategies, or plans described under paragraph (a)(2) 
        of this section, for the BLM's consideration in the planning 
        assessment; and

        (5) Coordinate with State and local governments and Indian 
        tribes to formulate BLM planning and management objectives in 
        the planning area, in accordance with 43 U.S.C. 1712(c)(9); and

        (4)(6) Identify relevant public views concerning resource, 
        environmental, ecological, social, or economic conditions of 
        the planning area.

    The above amendments would fulfill the BLM's statutory mandate to 
``coordinate land use inventory, planning, and management activities . 
. . with State and local governments'' and to ``provide for meaningful 
public involvement of State and local government officials.'' \8\ It 
would assure that State and local governments, as elected 
representatives of the public, have a specific, formal role in the 
planning assessment process. The proposed amendments would also fulfill 
FLPMA's requirement that ``Land use plans of the [BLM] under this 
section shall be consistent with State and local plans to the maximum 
extent [the BLM] finds consistent with Federal law and the purposes of 
[FLPMA].'' \9\
---------------------------------------------------------------------------
    \8\ 43 U.S.C. 1712(c)(9).
    \9\ 43 U.S.C. 1712(c)(9).
---------------------------------------------------------------------------
    The State's proposed language would still allow the BLM to identify 
public views, consistent with FLPMA's requirements to develop, 
maintain, and revise land use plans ``with public involvement'' \10\ 
and to ``give Federal, State, and local governments and the public, 
adequate notice and opportunity to comment upon and participate in the 
formulation of plans and programs relating to the management of the 
public lands.'' \11\
---------------------------------------------------------------------------
    \10\ 43 U.S.C. 1712(a).
    \11\ 43 U.S.C. 1712(f).
---------------------------------------------------------------------------
    The BLM can greatly improve the Proposed Rule through regular 
consultation with State and local governments. This letter constitutes 
an attempt by the State to consult with the BLM, not as an opposing 
party but as a partner with the BLM seeking the best management of 
public lands. Greater consultation and coordination with State and 
local government is needed across all BLM planning, and adoption of the 
changes recommended in this letter would be a critical first step 
toward better coordination. The State strongly requests that the BLM 
amend the Proposed Rule according to this letter and looks forward to 
the response. Please feel free to contact Utah's Public Lands Policy 
Coordinating Office with any questions.

            Sincerely,

                                           Kathleen Clarke,
                                                          Director.

                                 ______
                                 

    Mr. Hice. The members of the committee may have some 
additional questions for the witnesses, and we will ask you to 
respond to those in writing. Under Committee Rule 4(h), the 
hearing record will be held open for 10 business days for these 
responses.
    If there is no further business, without objection, the 
committee stands adjourned.

    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

--  Foundation for Integrated Preservation--Comments: Comments 
            on BLM Resources Management Proposed Rule (Planning 
            2.0). Sent to the Committee in regards to the 
            hearing (May 2016).

--  Letter with Comments from the County of Otero, New Mexico, 
            addressed to BLM Director Neil Kornze, Acting Asst. 
            Director of Resource Planning, Mike Tupper, and 
            Director (630) in regards to BLM's proposed 
            Planning 2.0.

--  Letter with Comments from the Wildlife and Hunting Heritage 
            Conservation Council addressed to DOI Secretary 
            Sally Jewell in regards to BLM's proposed Planning 
            2.0.

--  Theodore Roosevelt Conservation Partnership--Brief: BLM 
            Planning 2.0--A Needed Change (May 2016).

--  Theodore Roosevelt Conservation Partnership--Editorial: 
            BLM's Planning Rule for Public Lands Will Give 
            Locals More of a Voice, Not Less (May 2016).

--  Submitted Statement of Joel Webster, Director of Western 
            Public Lands at the Theodore Roosevelt Conservation 
            Partnership to the Subcommittee in regards to the 
            hearing (May 2016).

                                 [all]


</pre></body></html>
